<html>
<title> - SCALING UP APPRENTICESHIPS: BUILDING ON THE SUCCESS OF INTERNATIONAL APPRENTICESHIP MODELS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                      SCALING UP APPRENTICESHIPS:
                BUILDING ON THE SUCCESS OF INTERNATIONAL
                  INTERNATIONAL APPRENTICESHIP MODELS

=======================================================================

                                HEARING

                               BEFORE THE

       SUBCOMMITTEE ON HIGHER EDUCATION AND WORKFORCE INVESTMENT


                         COMMITTEE ON EDUCATION
                               AND LABOR
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

             HEARING HELD IN WASHINGTON, DC, JULY 16, 2019

                               __________

                           Serial No. 116-35

                               __________

      Printed for the use of the Committee on Education and Labor

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

           Available via the World Wide Web: www.govinfo.gov                   
                                              or              
                                              
             Committee address: https://edlabor.house.gov             
             
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
37-321 PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------
            
                    COMMITTEE ON EDUCATION AND LABOR

             ROBERT C. ``BOBBY'' SCOTT, Virginia, Chairman

Susan A. Davis, California           Virginia Foxx, North Carolina,
Raul M. Grijalva, Arizona            Ranking Member
Joe Courtney, Connecticut            David P. Roe, Tennessee
Marcia L. Fudge, Ohio                Glenn Thompson, Pennsylvania
Gregorio Kilili Camacho Sablan,      Tim Walberg, Michigan
  Northern Mariana Islands           Brett Guthrie, Kentucky
Frederica S. Wilson, Florida         Bradley Byrne, Alabama
Suzanne Bonamici, Oregon             Glenn Grothman, Wisconsin
Mark Takano, California              Elise M. Stefanik, New York
Alma S. Adams, North Carolina        Rick W. Allen, Georgia
Mark DeSaulnier, California          Lloyd Smucker, Pennsylvania
Donald Norcross, New Jersey          Jim Banks, Indiana
Pramila Jayapal, Washington          Mark Walker, North Carolina
Joseph D. Morelle, New York          James Comer, Kentucky
Susan Wild, Pennsylvania             Ben Cline, Virginia
Josh Harder, California              Russ Fulcher, Idaho
Lucy McBath, Georgia                 Van Taylor, Texas
Kim Schrier, Washington              Steve Watkins, Kansas
Lauren Underwood, Illinois           Ron Wright, Texas
Jahana Hayes, Connecticut            Daniel Meuser, Pennsylvania
Donna E. Shalala, Florida            William R. Timmons, IV, South 
Andy Levin, Michigan*                    Carolina
Ilhan Omar, Minnesota                Dusty Johnson, South Dakota
David J. Trone, Maryland             Fred Keller, Pennsylvania
Haley M. Stevens, Michigan
Susie Lee, Nevada
Lori Trahan, Massachusetts
Joaquin Castro, Texas
* Vice-Chair

                   Veronique Pluviose, Staff Director
                 Brandon Renz, Minority Staff Director
                                 ------                                

       SUBCOMMITTEE ON HIGHER EDUCATION AND WORKFORCE INVESTMENT

                 SUSAN A. DAVIS, California, Chairwoman


Joe Courtney, Connecticut            Lloyd Smucker, Pennsylvania,
Mark Takano, California                Ranking Member
Pramila Jayapal, Washington          Brett Guthrie, Kentucky
Josh Harder, California              Glenn Grothman, Wisconsin
Andy Levin, Michigan                 Elise Stefanik, New York
Ilhan Omar, Minnesota                Jim Banks, Indiana
David Trone, Maryland                Mark Walker, North Carolina
Susie Lee, Nevada                    James Comer, Kentucky
Lori Trahan, Massachusetts           Ben Cline, Virginia
Joaquin Castro, Texas                Russ Fulcher, Idaho
Raul M. Grijalva, Arizona            Steve C. Watkins, Jr., Kansas
Gregorio Kilili Camacho Sablan,      Dan Meuser, Pennsylvania
  Northern Mariana Islands           William R. Timmons, IV, South 
Suzanne Bonamici, Oregon                 Carolina
Alma S. Adams, North Carolina
Donald Norcross, New Jersey
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on July 16, 2019....................................     1

Statement of Members:
    Davis, Hon. Susan A., Chairwoman, Subcommittee on Higher 
      Education and Workforce Investment.........................     1
        Prepared statement of....................................     3
    Smucker, Hon. Lloyd, Ranking Member, Subcommittee on Higher 
      Education and Workforce Investment.........................     4
        Prepared statement of....................................     5

Statement of Witnesses:
    Annen, Dr. Silvia, Ph.D., Senior Researcher, Federal 
      Institute for Vocational Education and Training, Bonn, 
      Germany....................................................    13
        Prepared statement of....................................    16
    Bradley, Mr. Tim, Minister Counsellor for Industry, Science, 
      and Education, Embassy of Australia........................     7
        Prepared statement of....................................    10
    Marti, Dr. Simon, Ph.D., Head of Office, Swisscore, Brussels, 
      Belgium....................................................    23
        Prepared statement of....................................    25

Additional Submissions:
    Mr. Bradley:
        Slides: Australian Apprenticeships.......................    76
        Chart: Apprentices and Trainee 2018-December Quarter.....    80
        Link: Strengthening Skills...............................    90
    Guthrie, Hon. Brett, a Representative in Congress from the 
      State of Kentucky:
        Prepared statement from the American of Institute 
          Certified Public Accountants...........................    91
    Levin, Hon. Andy, a Representative in Congress from the State 
      of Michigan:
        Article: U.S. Needs More Tradespeople....................    50
    Questions submitted for the record by:
        Chairwoman Davis 

        Foxx, Hon. Virginia, a Representative in Congress from 
          the State of North Carolina 

        Sablan, Hon. Gregorio Kilili Camacho, a Representative in 
          Congress from the Northern Mariana Islands 

    Responses to questions submitted for the record by:
        Dr. Annen................................................   100
        Mr. Bradley..............................................   112
        Dr. Marti................................................   117

 
                  SCALING UP APPRENTICESHIPS: BUILDING
                    ON THE SUCCESS OF INTERNATIONAL
                         APPRENTICESHIP MODELS

                              ----------                              


                         Tuesday, July 16, 2019

                       House of Representatives,

                    Subcommittee on Higher Education

                       and Workforce Investment,

                   Committee on Education and Labor,

                            Washington, D.C.

                              ----------                              

    The subcommittee met, pursuant to call, at 10:16 a.m., in 
Room 2175, Rayburn House Office Building, Hon. Susan Davis 
(Chairwoman of the subcommittee) presiding.
    Present: Representatives Davis, Courtney, Takano, Jayapal, 
Harder, Levin, Trone, Bonamici, Adams, Norcross, Scott (ex 
officio), Smucker, Guthrie, Grothman, Stefanik, Walker, Cline, 
Watkins, Meuser, Timmons, and Foxx (ex officio).
    Also Present: Representatives Wild and Keller.
    Staff Present: Tylease Alli, Chief Clerk; Ilana Brunner, 
General Counsel; Emma Eatman, Press Assistant; Ariel Jona, 
Staff Assistant; Stephanie Lalle, Deputy Communications 
Director; Jaria Martin, Clerk/Assistant to the Staff Director; 
Katie McClelland, Professional Staff; Richard Miller, Director 
of Labor Policy; Max Moore, Office Aide; Udochi Onwubiko, Labor 
Policy Counsel; Veronique Pluviose, Staff Director; Banyon 
Vassar, Deputy Director of Information Technology; Rolie 
Adrienne Webb, Education Policy Fellow; Courtney Butcher, 
Minority Director of Coalitions and Members Services; Cate 
Dillon, Minority Staff Assistant; Bridget Handy, Minority 
Communications Assistant; Dean Johnson, Minority Staff 
Assistant; Amy Raaf Jones, Minority Director of Education and 
Human Resources Policy; Hannah Matesic, Minority Director of 
Operations; Jake Middlebrooks, Minority Professional Staff 
Member; Carlton Norwood, Minority Press Secretary; Brandon 
Renz, Minority Staff Director; Chance Russell, Minority 
Legislative Assistant; Mandy Schaumburg, Minority Chief Counsel 
and Deputy Director of Education Policy; Brad Thomas, Minority 
Senior Education Policy Advisor.
    Chairwoman Davis. Good morning. The Subcommittee on Higher 
Education and Workforce Investment will come to order.
    I note that a quorum is present. I note for the 
subcommittee that Representative Susan Wild of Pennsylvania 
will be permitted to participate in today's hearing, with the 
understanding that her questions will come only after all 
Members of the Subcommittee on Higher Education and Workforce 
Investment on both sides of the aisle who are present have an 
opportunity to question the witnesses.
    The subcommittee is meeting today to hear testimony on 
``Scaling Up Apprenticeships: Building on the Success of 
International Apprenticeship Models.''
    Pursuant to Committee Rule 7(c), opening statements are 
limited to the Chair and the Ranking Member, and this allows us 
to hear from our witnesses sooner and provides all Members with 
adequate time to ask questions.
    I recognize myself now for the purpose of making an opening 
statement.
    Before I begin, I would like to thank our distinguished 
witnesses for traveling across the globe to testify today. We 
are delighted to have you. The committee appreciates the time 
you have taken to prepare your testimony and inform us of the 
structure and outcomes in your respective apprenticeship 
systems.
    Today, we look forward to learning more about the 
apprenticeship systems of Australia, Germany, and Switzerland, 
including how these systems strike a balance between strong 
government oversight and the flexibility to meet the needs of 
employers and the labor market through innovation. We hope to 
use what we learn today to strengthen apprenticeship 
opportunities here in the United States.
    A U.S. registered apprenticeship program has long provided 
Americans the opportunity to learn valuable on-the-job skills 
and earn a stackable and nationally recognized credential that 
serves as a pathway to the middle class. It is my hope that we 
can work together on a bipartisan basis to help scale this 
model.
    For years, the Australian, German, and Swiss apprenticeship 
systems have been the gold standard of apprenticeship programs 
around the world. And they are not only highly popular and 
well-supported, but they also provide nationally recognized and 
portable credentials valued by apprentices and employers alike.
    In Switzerland, fully 1 percent of gross domestic product 
is dedicated to apprenticeships, with the private sector 
covering 60 percent, the cantons or states funding 30 percent, 
and the federal government covering about 10 percent. In the 
U.S., this level of Federal support would amount to 
approximately $20 billion per year, nearly two times the total 
discretionary budget for the entire U.S. Department of Labor 
today. Some impressive numbers.
    In Germany, the dual system of vocational education and 
training supports the economy and contributes to a youth 
unemployment rate of 5 percent, the lowest in the European 
Union. And this compares with 12.7 percent in the U.S., 
according to the Bureau of Labor Statistics.
    In Australia, the apprenticeship system offers more than 
500 occupational apprenticeships and traineeship pathways, 
including a digital apprenticeship program open to anyone of 
working age.
    All three countries, all three countries have implemented 
research and evaluation components which support the continuous 
evolution of the system and adoption of evidence-based best 
practices.
    During our discussion today, we will examine how these 
successful international apprenticeship systems utilize 
substantial investments from both government and participating 
employers. I am excited to hear from Dr. Simon Marti, as I was 
so impressed during my visit to Switzerland with how their 
apprenticeship system is integrated into their education system 
and provides permeable pathways for students to choose from.
    We will also examine how successful apprenticeship systems 
look to their state and federal governments for strong national 
standards to ensure consistent quality and strong protections 
for apprentices.
    I look forward to exploring how the German apprenticeship 
system relies on recognized occupations and training 
regulations to set nationally recognized quality standards for 
apprenticeships. These standards ensure that apprentices earn 
credentials that are recognized, not only by employers across 
Germany, but across the European Union.
    We will be especially interested in learning how successful 
apprenticeship models expand into new economic sectors through 
employer collaboration, union involvement, and adoption of 
guardrails to ensure quality.
    I am particularly eager to learn more about the Australian 
apprenticeship system, which incentivizes new apprenticeship 
opportunities in high-demand occupations while also 
prioritizing the recruitment of underserved groups, such as 
indigenous Australians and people with disabilities.
    Today's hearing is truly a unique opportunity for this 
committee to discuss best practices for strengthening 
government oversight, industry innovation, and educational 
alignment that we can look to apply to our national 
apprenticeship system. These discussions will be a crucial 
resource as this committee considers apprenticeship legislation 
to strengthen apprenticeship opportunities for all Americans.
    Thank you again to our witnesses for being here today. I 
look forward to our discussion.
    I wanted to also note that I am pleased to be proceeding 
with this hearing on a bipartisan basis.
    I now yield to my colleague Mr. Smucker for his opening 
statement.
    [The statement of Chairwoman Davis follows:]

Prepared Statement of Hon. Susan A. Davis, Chairwoman, Subcommittee on 
               Higher Education and Workforce Investment

    Before I begin, I'd like to thank our distinguished witnesses for 
traveling across the globe to testify today. The Committee appreciates 
the time you've taken to prepare your testimony and inform us of the 
structure and outcomes in your respective apprenticeship systems.
    Today, we look forward to learning more about the apprenticeship 
systems of Australia, Germany, and Switzerland, including how these 
systems strike a balance between strong government oversight and the 
flexibility to meet the needs of employers and the labor market through 
innovation. We hope to use what we learn today to strengthen 
apprenticeship opportunities here in the U.S.
    The U.S. Registered Apprenticeship program has long-provided 
Americans the opportunity to learn valuable on- the-job skills and earn 
a stackable and nationally recognized credential that serves as a 
pathway to the middle class. It is my hope that we can work together on 
a bipartisan basis to help scale up this model.
    For years, the Australian, German, and Swiss apprenticeship systems 
have been the gold standard of apprenticeship programs around the 
world. They are not only highly popular and well-supported, but also 
provide nationally-recognized and portable credentials valued by 
apprentices and employers alike.
    * In Switzerland, fully 1 percent of Gross Domestic Product is 
dedicated to Apprenticeships, with the private sector covering 60 
percent, the cantons or states funding 30 percent, and the federal 
government covering 10 percent. In the U.S., this level of federal 
support would amount to approximately $20 billion per year, nearly two 
times the total discretionary budget for the entire U.S. Department of 
Labor today.
    * In Germany, the dual system of vocational education and training 
supports the economy and contributes to a youth unemployment rate of 5 
percent, the lowest in the European Union. This compares with 12.7 
percent in the U.S., according to the Bureau of Labor Statistics.
    * In Australia, the apprenticeship system offers more than 500 
occupational apprenticeships and traineeship pathways, including a 
Digital Apprenticeship Program, open to anyone of working age.
    All three countries have implemented research and evaluation 
components, which support the continuous evolution of the system and 
adoption of evidence-based best practices.
    During our discussions today, we will examine how these successful 
international apprenticeship systems utilize substantial investments 
from both governments and participating employers. I am excited to hear 
from Dr. Simon Marti, as I was so impressed during my visit to 
Switzerland with how their apprenticeship system is integrated into 
their education system and provides permeable pathways for students to 
choose from.
    We will also examine how successful apprenticeship systems look to 
their state and federal governments for strong national standards to 
ensure consistent quality and strong protections for apprentices. I 
look forward to exploring how the German apprenticeship system relies 
on recognized occupations and training regulations to set nationally-
recognized quality standards for apprenticeships. These standards 
ensure that apprentices earn credentials that are recognized not only 
by employers across Germany, but across the European Union.
    We will be especially interested in learning how successful 
apprenticeship models expand into new economic sectors through employer 
collaboration, union involvement, and adoption of guardrails to ensure 
quality.
    I am particularly eager to learn more about the Australian 
apprenticeship system, which incentivizes new apprenticeship 
opportunities in high-demand occupations, while also prioritizing the 
recruitment of underserved groups, such as Indigenous Australians and 
people with disabilities.
    Today's hearing is a unique opportunity for this Committee to 
discuss best practices for strengthening government oversight, industry 
innovation, and educational alignment that we can possibly apply to our 
National Apprenticeship System. These discussions will be a crucial 
resource as this Committee considers apprenticeship legislation to 
strengthen apprenticeship opportunities for all Americans.
    Thank you, again, to our witnesses for being here today. I look 
forward to our discussion. Before I yield to the Ranking Member, I 
wanted to note that I am especially pleased to be holding this hearing 
on a bipartisan basis.
                                 ______
                                 
    Mr. Smucker. Thank you for yielding.
    I would like to start by thanking the Chairwoman for 
scheduling this hearing. We have had, personally and in this 
committee, multiple discussions about the benefits of 
apprenticeship and earn-while-you-learn programs, and so this 
is going to be a wonderful discussion here.
    We have seen a surge in interest for apprenticeships, both 
here, and I think it is fair to say, across the world, as more 
employers and small businesses recognize the critical role that 
apprenticeships play in the development of the skilled 
workforce. These important programs combine on-the-job learning 
and classroom-based instruction so that workers receive the 
development they need to get and to keep a job. Successful 
workers obviously lead to successful businesses and growth in 
the economy.
    Internationally, apprenticeships have transformed workforce 
development. And so today I am looking forward to hearing from 
our witnesses from Germany, Switzerland, and Australia so that 
we can learn more about each of your unique apprenticeship 
systems. We know that no two countries are exactly alike and 
the system that you have may not work exactly here in the 
United States, but we can certainly trade best practices and 
learn from each of you here today, and I am looking forward to 
that.
    To ensure that apprenticeship programs in the U.S. are 
successful, committee Republicans will continue to support 
efforts that ease the regulatory burden that many employers 
face when participating in registered apprenticeships. After 
all, employers know best what skills their employees need to 
succeed in the workforce. Employer-led innovation should be 
encouraged when it comes to work-based learning.
    We must also work to better integrate education and the 
workforce so that in-the-classroom and on-the-job development 
work hand-in-hand to propel all students to excellence and 
success in a rapidly evolving economy. A crucial aspect of 
education reform will be addressing the job skills gap in this 
country which has left thousands of jobs unfilled in our 
booming economy.
    Apprenticeships are real ways that we can give American 
workers and students the skills they need for successful 
careers. Today's hearing will allow Members to learn more about 
the variety of apprenticeship models and how we can better 
innovate to help Americans pursue opportunities that lead to 
personal and professional growth.
    So thank you again to each of the witnesses for being here. 
We look forward to your testimonies.
    [The statement of Mr. Smucker follows:]

Prepared Statement of Hon. Lloyd Smucker, Ranking Member, Subcommittee 
              on Higher Education and Workforce Investment

    In recent years we've seen a surge in interest for apprenticeships 
across the world, as more employers and small businesses recognize the 
critical role apprenticeships play in the development of a skilled 
workforce. These important programs combine on-the-job learning and 
classroom - based instruction so that workers receive the development 
they need to get a job and keep a job. Successful workers lead to 
successful businesses, which grow and strengthen the U.S. economy.
    Internationally apprenticeships have transformed workforce 
development. Today we welcome witnesses from Germany, Switzerland, and 
Australia so we can learn more about their unique apprenticeship 
systems. Understanding what is and isn't working among the various 
international models is valuable, but we must also remember that no two 
countries are exactly alike, and international models cannot be 
directly implemented in the United States.
    To ensure apprenticeship programs in the U.S. are successful, 
Committee Republicans will continue to support efforts that ease the 
regulatory burden many employers face when participating in registered 
apprenticeships. After all, employers know best what skills their 
employees need to succeed in the workplace. Employer -led innovation 
should be encouraged when it comes to work-based learning.
    We must also work to better integrate education and the job force, 
so that in the classroom and on-the-job development work hand in hand 
to propel all students to excellence and success in a rapidly evolving 
economy. A crucial aspect of education reform will be addressing the 
job skills gap in this country, which has left thousands of jobs 
unfilled in our booming economy.
    Apprenticeships are real ways we can give American workers and 
students the skills they need for successful careers. And today's 
hearing will allow Members to learn more about the variety of 
apprenticeship models and how we can better innovate to help Americans 
pursue opportunities that lead to personal and professional growth. 
Thank you again to our witnesses, and I look forward to your 
testimonies.
                                 ______
                                 
    Chairwoman Davis. I want to thank our distinguished Ranking 
Member, and remind all of our Members that you are able to 
insert written statements into the record and must submit them 
to the Committee Clerk electronically in Microsoft Word format 
by 5 p.m. on July 30.
    I am pleased to recognize my colleague now, Representative 
Joe Courtney, to briefly introduce our first witness appearing 
before us as a witness today.
    Mr. Courtney.
    Mr. Courtney. Thank you, Chairwoman Davis.
    As co-chair of the Friends of Australia Caucus, a 
bipartisan caucus of Members from the House, I am pleased to 
introduce Mr. Tim Bradley, Counselor for industry, science and 
education for the Department of Education at the Australian 
Embassy in Washington, D.C. In that role, Tim is well-versed in 
Australian apprenticeship programs, and during his time in the 
U.S., he has immersed himself in our job training system and 
challenges and can offer some very useful perspectives about 
ways we can both learn from each other.
    I would also note that he is the first witness from the 
Australian Embassy to testify before Congress since 1994, and 
he wanted me to extend his thanks to the Chairwoman for the 
invitation to be here.
    They are a great ally of our country and, again, we share a 
lot in terms of approaches to everything from common values and 
interests and certainly education and economic issues. So, 
again, we are pleased that he is joining us here today.
    And, with that, I will yield back.
    Chairwoman Davis. Thank you, Mr. Courtney.
    And I will now introduce our remaining witnesses. Dr. 
Silvia Annen is a senior researcher at the Federal Institute 
for Vocational Education and Training in Bonn, Germany, which 
oversees the coordination of all parties involved in German 
apprenticeship systems.
    Dr. Annen, as I mentioned in my opening, the committee 
appreciates the distances that you have traveled and the time 
that you invested in helping us learn more about the German 
apprenticeship system.
    Dr. Simon Marti is the head of office of SwissCore, the 
Swiss Contact Office for European Research, Innovation, and 
Education in Brussels. Until June of 2019, he headed the Office 
of Science, Technology, and Higher Education at the Embassy of 
Switzerland in the United States of America, Washington, D.C. 
Dr. Marti also began his career as an apprentice and will be 
able to provide firsthand insights into the Swiss system.
    As I mentioned to Dr. Annen just now when we spoke, I 
wanted to extend our appreciation, of course, for your travels 
today and the time that you spent informing us, and also 
thanking you for the trips that my staff and other colleagues 
took to Switzerland to learn more about their Swiss 
apprenticeship model.
    We appreciate all the witnesses for being here today and 
look forward to your testimony. I want to remind the witnesses 
that we have read your written statements and they will appear 
in full in the hearing record.
    Pursuant to Committee Rule 7(d) and committee practice, 
each of you is asked to limit your oral presentation to a five-
minute summary of your written statement. I also wanted to 
remind the witnesses that pursuant to Title 18 of the U.S. 
Code, Section 1001, it is illegal to knowingly and willfully 
falsify any statement, representation, writing, document, or 
material fact presented to Congress or otherwise conceal or 
cover up material fact.
    Before you begin your testimony, please remember to press 
the button on the microphone in front of you so that it will 
turn on and the Members can hear you. As you begin to speak, 
the light in front of you will turn green, and after four 
minutes, the light will turn yellow to signal that you have 1 
remaining minute. When the light turns red, your five minutes 
have expired, and we ask you to please wrap up as quickly as 
you can.
    We will let the entire panel make their presentation before 
we move to Member questions. And when answering a question, 
please remember also to turn your microphone on.
    I first recognize Mr. Tim Bradley. Thank you, sir.

  STATEMENT OF TIM BRADLEY, MINISTER COUNSELLOR FOR INDUSTRY, 
          SCIENCE, AND EDUCATION, EMBASSY OF AUSTRALIA

    Mr. Bradley. Thank you very much.
    Chairwoman Davis, Ranking Member Smucker, Members of this 
committee, thank you for inviting me to this hearing today. I 
am very honored to participate.
    A special thank you to Congressman Courtney, both for your 
leadership on the Friends of Australia Caucus and for that 
special introduction. Thank you.
    My name is Tim Bradley. I am the minister counselor for 
industry, science, and education here in the embassy in 
Washington.
    The Australian apprenticeship system is essential to 
developing highly skilled and qualified workers. We drive 
productivity and deliver the goods and services that underpin a 
sizable part of the Australian economy.
    The Australian apprenticeship system delivers nationally 
recognized, stackable, portable adult and youth apprenticeships 
that are designed in partnership with local industry and 
provide access to small, medium, and large businesses. Through 
a combination of productive work and structured learning, 
Australian apprenticeships offer the opportunity to obtain a 
variety of qualifications, all the while earning an income. 
Anyone of working age can undertake an apprenticeship. They can 
be started while undertaking the final 2 years of school, known 
as an Australian school-based apprenticeship.
    I am using the term ``Australian apprenticeships'' to cover 
both apprenticeships which are a structured training agreement, 
typically 3-1/2 to 4 years, that cover skilled trade areas and 
result in a portable industry recognized qualification, and 
also traineeships, which tend to be shorter in term and 
typically cover nontrade occupations, last between 9 months and 
2 years.
    The Australian apprenticeship system is a shared 
commonwealth-state responsibility where broadly the 
commonwealth, more specifically the Department of Employment 
Skill, Small, and Family Business, develops policy, administers 
the Australian apprenticeship support network and provides 
incentive payments, and the states and territories, which have 
responsibility for registering, administering training 
contracts, and providing support throughout the process.
    In addition, the Australian apprenticeship support network 
provides free advice and support before and during an 
apprenticeship. ASQA, which is the Australian Skilled Quality 
Authority, the national regulator for Australia's vocational 
and education training sector, which regulates courses and 
training providers to ensure nationally approved quality 
standards are met; and the NCVER, the National Center for 
Vocational Education Research, which is the national 
professional body responsible for collecting, managing, 
analyzing, and communicating research and statistics about the 
sector.
    A short note on vocational training in Australia. The VET 
sector, the Vocational Education and Training sector. VET is 
provided by registered training organizations who provide 
nationally recognized courses and qualifications and off-the-
job training. They include what we call TAFEs, Tertiary and 
Further Education colleges, private institutions, industry 
organizations, and individual businesses. Competency-based 
training packages are developed in consultation with industry 
and provide a quality assured standard of training.
    An integral part of the Australian apprenticeship system is 
the group training model. Group training organizations enter 
into training contracts with apprentices and place them with 
host employers. Group training organizations assume 
responsibility for quality and continuity of an apprentice's 
training, as well as providing support services throughout 
their course.
    The group training model allows for students to rotate 
through a series of host employers and facilitates employment 
with employers that have seasonal or project-specific labor 
requirements. It also offers apprentices a richer training 
experience.
    Financial incentives are provided by the commonwealth 
government to employers at the time of commencement and 
completion. Standard incentives vary, depending on the state 
and territory, but can have a value of up to 4,000 Australian 
dollars. In addition, special incentives are also provided for 
those undertaking qualifications in identified skill shortage 
needs, those with disability, school-based apprenticeships, 
mature age workers, and for rural and regional apprentices. 
Apprentices in priority occupations may access income-
contingent trade support loans worth up to $21,000 to assist 
with their living costs while undertaking the apprenticeship.
    About 160,000 apprentices commenced in 2018. Some 260,000 
are training as of the end of last year. This represents about 
2 percent of the total workforce. Most apprentices are 
technicians and trades, including construction workers, 
automotive and engineering. Community and personal service 
workers are the next largest category.
    Apprentices, for the most part, they are male, about 
200,000 in the system compared with 63,000 females, and mostly 
aged under 24. The number of apprentices in the system has 
stayed relatively constant since about 2014.
    The Australian Government is committed to an ongoing--
sorry. The Australian Government recognizes the impact that new 
technologies, global markets, and changing demands will have on 
the workforce. We have built a system that reflects the need to 
be adaptable and responsive to those needs and provide core 
skills required to satisfy the demands of the future.
    The Australian Government is committed to ongoing reform 
and improvement of the apprenticeship system and to the VET 
system at large. A review of the VET system was undertaken last 
year, with an eye on how the government can ensure millions of 
Australians have the skills they need to succeed in a changing 
labor market. I am pleased to say that a whole-of-government 
task force has just been established to implement those 
recommendations.
    Chairwoman Davis, Ranking Member Smucker, thank you again 
for inviting me to speak today. I hope this has been useful. 
Thank you.
    [The statement of Mr. Bradley follows:]
   
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairwoman Davis. Thank you. Thank you, Mr. Bradley.
    Dr. Annen.

 STATEMENT OF SILVIA ANNEN, PH.D., SENIOR RESEARCHER, FEDERAL 
 INSTITUTE FOR VOCATIONAL EDUCATION AND TRAINING, BONN, GERMANY

    Ms. Annen. Thank you, Chairwoman Davis, Ranking Member 
Smucker, and honorable Members of the Subcommittee on Higher 
Education and Workforce Investment, for inviting me to testify 
today.
    I work with the German Federal Institute for Vocational 
Education and Training, the BIBB. The BIBB is the recognized 
competence center for researching and developing initial and 
continuing vocational education and training in Germany. It 
performs its task based on the Vocational Training Act and 
works closely with the federal government, the German federal 
states, and the social partners, the employer organizations and 
the trade unions.
    Our institute is committed to the principle of a dialogue 
between research, politics, and practice, and promotes 
innovation in national and international vocational education 
and training.
    Today in my testimony I have been asked to introduce the 
German Dual VET system. This system provides a nationally 
recognized vocational training framework by working with the 
industry to determine qualifications and training.
    The dual system of vocational education and training is a 
major reason why Germany has such a vibrant economy and the 
lowest youth unemployment rate in the EU. It equips apprentices 
with sound qualifications through its unique combination of 
theory and practice, learning and working, hence the name dual 
system.
    Participants are thus offered a debt-free, highly 
attractive, and recognized training and career path after the 
end of compulsory schooling, either as an alternative to 
university education or as a complementary option.
    Job skills are a key ingredient for commercial success in 
the United States as well as in Germany. German companies, also 
the ones in the U.S., are particularly well-positioned to 
provide their workers with these skills, drawing on their 
experience with Germany's vocational education and training 
system.
    In Germany, the federal government stipulates the statutory 
framework and thus creates a legal certainty for all those 
involved. But there are two main components to the system. The 
company component of dual training is regulated in a nationally 
standardized manner. The school-based component guarantees that 
specific regional characteristics are taken into account. A 
statutory framework is required in order to create harmony 
between the two learning venues in the dual system. All of this 
together guarantees equivalence and recognition of a training 
occupation across Germany.
    In Germany, 52.4 percent of people utilize the Dual VET 
system to enter the labor market. Dual VET provides a track in 
the vocational training system of Germany, though not the only 
one, and typically leads to employment earlier than higher 
education. In addition, access from Dual VET to higher 
education, and vice versa, are mutually possible.
    Dual VET qualifications open up a range of professional 
opportunities for graduates. VET certificates are nationally 
recognized throughout Germany as qualifications for employment 
as well as for continuing education. Because certificates are 
nationally recognized, graduates have the advantage of being 
able to find work throughout Germany, a key criteria in 
ensuring labor force mobility.
    The Dual VET standards are based on the real world 
employment requirements, with economic need often driving the 
updating and development of national Dual VET standards. 
Employers identify new requirements within their workplaces, 
which leads to new occupational qualifications.
    A consensus between the social partners is mandatory to 
start the development of a new or the updating of an existing 
occupational qualification. In practice, the social partners 
and the government negotiate and adopt new standards for in-
company training, the training regulations, under the guidance 
of the BIBB, within multistakeholder expert groups, which 
represent the employers and employees as well as the federal 
government and the federal states. These groups meet at the 
BIBB on average five times over a period of about half a year 
to discuss and develop the training regulations.
    The education standards for vocational schools, the 
framework curricula, are developed and updated in parallel and 
coordinated with the in-company training standards, the 
regulations.
    Dual VET standards simply formalize previously agreed-upon 
standards by all relevant stakeholders. Hence, the standards 
are not simply imposed from above, but when finally 
promulgated, are already accepted by the same stakeholders who 
are tasked with implementing and monitoring them. Most 
importantly, they are agreed to by employers who require these 
skills. These standards guide the delivery, monitoring, 
supervision, and support of the Dual VET nationwide.
    The quality assurance guaranteed within the system is 
essential for its acceptance and success. The key aspects in 
this regard are the cooperation of the government, the business 
community, and the social partners, the learning within the 
work process, the acceptance of national standards, the 
qualified VET staff, and the institutionalized research and 
advice. These quality features could provide some guidance 
toward which elements of the Dual VET could be utilized for 
strengthening quality of VET in other countries.
    [The statement of Ms. Annen follows:]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairwoman Davis. Thank you very much.
    Dr. Marti.

  STATEMENT OF SIMON MARTI, PH.D., HEAD OF OFFICE, SWISSCORE, 
                       BRUSSELS, BELGIUM

    Mr. Marti. Good morning. I want to thank the subcommittee 
Chairwoman Susan Davis, Ranking Member Lloyd Smucker, and all 
the Members of the House Committee on Education and Labor, for 
this invitation and for the opportunity to testify about 
Switzerland's apprenticeship model.
    My name is Simon Marti, and I am the head of the office of 
SwissCore, the Swiss Contact Office for European Research, 
Innovation, and Education in Brussels.
    Until only a month ago, I was heading the Science and 
Education Office here at the Swiss Embassy to the United 
States, where I was closely involved in the Swiss-American 
cooperation in apprenticeship. The Swiss State Secretariat for 
Education, Research, and Innovation has asked me to represent 
them in this hearing today. It is a pleasure to be back in 
Washington.
    Apprenticeships are the most important upper secondary 
educational pathway in Switzerland. Around two-thirds of our 
youth start a three- or four-year apprenticeship program at age 
16 after having finished compulsory education. They can choose 
from roughly 230 different occupations which cover all sectors 
of our economy.
    Apprenticeships are comprehensive dual pathways, which 
include an educational part of typically 1 or 2 days per week 
at the vocational school, and the practical part, usually with 
a private or public employer during the remaining 3 or 4 days 
each week. Apprentices do not have to pay tuition. The 
employers pays them a small salary. Thus, they earn while they 
learn.
    I would like to highlight three key features of our 
apprenticeship model that contributes to its success. It only 
works so smoothly because the involved actors work closely 
together in a public-private partnership.
    The employers play an important role. Over one-third of all 
Swiss companies that are able to train apprentices choose to do 
so. They hire young apprentices and offer them the opportunity 
to learn in actual workstreams, supported by an instructor. 
Furthermore, the employers, via their professional 
organizations, are playing an important role in designing 
apprenticeship programs and updating them on a regular basis.
    The cantons, which have roughly the same role and autonomy 
as States do in this country, are providing the vocational 
schools and career counseling. They also supervise 
apprenticeship programs in their jurisdiction.
    Federal legislation guarantees nationwide portability of 
the different degrees. The federal government supervises the 
functioning of the system and supports its further development 
by working with the cantons and professional organizations to 
adapt it for the future.
    This division of labor reflects how the system is funded. 
We invest every year more than 1 percent of our GDP or $9 
billion into our apprenticeship system. About 60 percent are 
contributed by the employers, 30 percent by the cantons, and 10 
percent by the federal government. Although the employers 
contribute the most, they see a positive financial return on 
investment in terms of costs and benefits.
    A second success factor is that the apprenticeship system 
is an integral part of our permeable education system. You can 
start out on an apprenticeship pathway, and if you have the 
aptitude and interest to do so, move on to university or 
further professional certification. There are no dead ends in 
the system. Multiple options are open at all levels of 
education.
    Lifelong learning is a reality in Switzerland. Young 
students and their parents typically perceive apprenticeships 
as strong foundations for a promising career or for the 
continuation of one's educational pathway. The permeability of 
the Swiss education system also makes it easier for our 
workforce to adapt to new developments on the labor markets and 
also to personal interests.
    Finally, apprenticeships are labor market-oriented. 
Apprentices learn to work with the latest tools and equipment 
that the school could not typically afford but the company 
needs in order to compete in the free market. Furthermore, when 
an employer is offering an apprenticeship position, it also 
means that this occupation is relevant in the labor market and 
there are typically job opportunities once the apprentice 
graduates.
    The Swiss system has many positive outcomes. It offers 
young people a meaningful perspective, prepares them to enter 
the labor market right after graduating from an apprenticeship 
program and earning a good salary already at age 19 or in their 
early twenties. This contributes to a low youth unemployment 
rate and offers our economy and society the skilled workforce 
that is necessary to compete in international markets and to 
flourish.
    Chairwoman Davis, Ranking Member Smucker, Members of the 
Committee on Education and Labor, I thank you for your 
attention.
    [The statement of Mr. Marti follows:]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]   

    Chairwoman Davis. Thank you very much.
    Now, under Committee Rule 8(a), we will now question 
witnesses under the five-minute rule. I have decided to go at 
the end, so I am going to yield to our next senior Member on 
the Majority side, and he will be followed by the Ranking 
Member. And we will then alternate between the sides.
    Mr. Courtney.
    Mr. Courtney. Thank you, Chairwoman Davis. Again, I want to 
congratulate you and the Ranking Member for holding this 
hearing. Frankly, I wish we did more of this, in terms of 
really learning from other examples around the world. So, 
again, kudos to both of you.
    And thank you to all the witnesses for, again, really 
informing us this morning.
    Mr. Bradley, again, using Australia as, again, an example 
of a country which we can learn from, here are the 
similarities: Australia is a market economy. The structure of 
its government consists of a federal level and also state 
level, which you sort of alluded to during your remarks. You 
also shared with us the fact that you are experiencing a skills 
gap just like we are. So, obviously, we are sort of all 
interested in trying to learn from each other as ways to fix 
that.
    I guess what I would ask you to do again is if you could 
sort of walk through the architecture of the arrangement that 
exists right now in terms of, again, the various organizations. 
So specifically the registered training organizations that 
provide nationally recognized courses in qualifications for the 
training portion of an apprenticeship, using your nationally 
recognized competency-based training packages.
    Again, if you could just sort of walk us through how are 
RTOs, you know, what do they consist of, who basically oversees 
their performance, and, again, in the context of just sort of 
explaining the architecture and governance?
    Mr. Bradley. Thank you. Thank you for the question. So let 
me reiterate, the VET sector in apprenticeships in Australia is 
a shared commonwealth and state responsibility. So we have a 
mechanism we call--
    Mr. Courtney. Just to translate into our English, so 
commonwealth means federal?
    Mr. Bradley. Being the federal government.
    Mr. Courtney. Thank you.
    Mr. Bradley. Shared responsibility between the federal and 
state governments. So we have a mechanism through which the 
federal and state governments can get together and kind of have 
these robust discussions and kind of work out a coordinated 
policy, national level and state levels, and how that can 
interact. And that is called the Council of Australian 
Governments Industry and Skills Council, COAG Skills Council. 
The Council gets together on a semiregular basis to have these 
issues, and they can set policy and respond to different demand 
factors that we are seeing in the market, for example, skill 
shortages, where are the priority skill shortages, what were 
the gaps that need to be addressed.
    That process is kind of working its way through the system 
now in terms of skill shortages. And just as of earlier this 
year, a list of priority skill areas was released by the 
government to say this is where we need to focus our attention.
    When it gets to--you asked about the RTOs, so registered 
training organizations are those institutions that deliver the 
education. They are a mixture of publicly funded colleges, 
private organizations, and industry groups. They are certified 
or accredited by a federal body known as ASQA, the Australian 
Skills Quality Authority, which is responsible for ensuring 
that what is being provided meets certain standards, is 
nationally consistent, and meets a variety of criteria.
    Mr. Courtney. If I could just jump in. So, again, you have 
got basically that level which establishes sort of a baseline 
in terms of quality and certification. Again, then that sort of 
flows down at the state level, again, with employer input in 
terms of just, you know, the--
    Mr. Bradley. When it comes to individual courses, what we 
call training packages, so those are designed with industry to 
say, you know, this is--for example, cybersecurity. What does 
it mean? What would a certificate 3 in cybersecurity need, say, 
if I was to employ someone who is a cybersecurity specialist or 
technician? What would I expect from them? And those 
expectations are heavily provided for by industry.
    Mr. Courtney. And for an individual who, again, goes 
through this process and obtains that certification, that 
certification is portable, right? I mean, that is something 
that they are not sort of tied to a specific employer or 
region.
    Mr. Bradley. Not to an employer, not to an individual 
state. So the Australian Qualifications Framework, the AQF, 
sits above all of this. And you have a qualification which you 
can take from employer to employer, from state to state, and 
you can also use it to contribute towards further education as 
well. So you can complete a certificate 3, for example. With a 
bit more study, that becomes a certificate 4.
    Mr. Courtney. Great. And, again, I think that seems like 
you wrestled with trying to strike the right balance, but at 
least maintaining a certifiable baseline.
    With that, I yield back.
    Chairwoman Davis. Thank you, Mr. Courtney.
    Now, Mr. Smucker, the Ranking Member, has decided to go at 
the end of his Members of questioning, so we will go to Mr. 
Grothman.
    Mr. Grothman. Okay. A couple questions. Of course, you are 
here today because I think we all agree that, in America, our 
education system after people graduate from high school is very 
inefficient and very screwed up.
    At what age in each of your countries is an average person 
expected to be working in the profession in which he or she 
will work for the rest of their life? I guess I will put it 
that way. What is the expectation?
    We will start with you, Mr. Bradley, and just work across.
    Mr. Bradley. Thank you for the question. I guess the answer 
to that is it depends on the occupation that we are talking 
about. I can tell you that, roughly, of the 140,000 apprentices 
that commenced an apprenticeship--
    Mr. Grothman. And I am not just saying apprentice. I am 
looking for your country. Like in America, you could go to 
college to become a CPA. You could get an apprenticeship and 
become a pipefitter or an operating engineer.
    The problem in America is very few people begin to do those 
things at age 21 or 22. Too many of them farfle around for a 
while in life before they do what eventually will be their 
life's work. That is what I am looking for.
    In your respective countries, subjectively if you don't 
have the exact answer, when are people expected to be working 
full time at the profession of their life?
    Mr. Bradley. Again, sir, I guess you would have an 
apprenticeship, which would take about 4 years. So you are 
talking about 22 by the time you are starting a career. The 
same with a bachelor's degree. You are talking 21, 22, 23 maybe 
before you go in a profession like that.
    I don't know if the answer is occupation for life. That is 
probably where I am tripping up on the question. I think we are 
in a state of the world now where we are starting one 
occupation, a bit more training, a bit more education, and we 
might pivot along the way through.
    Thank you.
    Ms. Annen. I can say for Germany that it is about the same 
age. So if you start your apprenticeship at about 18, 19, you 
might also be ready at 21, 22. But the same thing occurs in 
Germany, like it must not mean that you do this occupation for 
the rest of your life. So that is one major characteristic or 
criteria for our occupations, that we want to qualify people 
very broadly so that they have flexibility within their sector 
and also to what other sectors, so that it is not like they 
have to stick in this one occupation that is very narrow. The 
qualification that we offer, that is a major characteristic.
    And there is also continuing education. You can transfer to 
higher education. So it doesn't necessarily mean--for example, 
I started my apprenticeship also as a bank clerk, and now I am 
sitting here. So it depends on what you are doing afterwards.
    Mr. Grothman. Yes. Dr. Marti.
    Mr. Marti. Thank you. Yes. In Switzerland, apprentices 
usually graduate at age 19 and 20, and then they can really 
start working in their occupation.
    Mr. Grothman. Is that the norm?
    Mr. Marti. I would say most of people who do an 
apprenticeship graduate at age 19 or 20, because typically, 
they start around 16. Some start at age 15. Some start at age 
17. That is the range. And then the apprenticeships usually 
take 3 or 4 years, depending which occupation we are talking 
about.
    Mr. Grothman. Okay.
    Mr. Marti. So they can start working full time in their 
profession at age 19 or 20, some even at 18 maybe, some in 
their early twenties. And that is also, I think, a key feature 
of our system; they typically do not stay there for the rest of 
their life. They can go on into further education and--
    Mr. Grothman. Okay. I want to ask each of you whether you 
have this problem in your country. In America, I think we have 
two huge problems connected with our traditional four-year 
universities. First of all, almost half do not graduate when 
they go down that path, which obviously is a problem. And 
secondly, we have a lot of people get a degree in a four-year 
university and they find out they cannot get a satisfactory job 
with that four-year university and they may start an 
apprenticeship at age 25 or 28.
    Could you comment whether you have those problems in your 
countries? Again, I will start with Mr. Bradley.
    Mr. Bradley. So, yes. So my recollection is that our 
completion rates for a three- or four-year bachelor's degree 
are slightly higher than the U.S., but I am talking 60 percent 
rather than 50 percent. But I can talk about graduate outcomes 
where I know 75, 85 percent of graduates have employment within 
3 months of completing their degree.
    Ms. Annen. So for Germany, I can say that more than 50 
percent are entering this dual system, and it is driven by a 
need of the company. So they have actual places where they want 
to hire the people after they finish the apprenticeship. And in 
our system, like 95 percent of the apprenticeships get a job 
afterwards.
    And we have a lower participation in higher education. Now 
that we have changed the degrees, that we also implemented a 
bachelor in math degree, that might change a little bit. So 
bachelor degrees are a little bit competitive to 
apprenticeships, but so far, apprenticeships offer a really 
good career perspective and almost secure employment 
afterwards.
    Chairwoman Davis. Thank you. Mr. Grothman, we are going to 
move to Ms. Jayapal.
    Ms. Jayapal. Thank you very much, Madam Chair.
    And thank you so much to all of you for coming here. I have 
the great honor of having former Ambassador to Switzerland, 
Suzy LeVine is in my district. And so I have actually heard a 
lot about, particularly Switzerland, but all over Europe the 
apprenticeship model. And I am grateful that you all are here. 
We have a lot to learn from you.
    Just going to the question of higher education, can you 
just quickly tell me, just picking up from where my colleague 
left off, whether the higher education in your countries is 
paid for by the government? Dr. Marti.
    Mr. Marti. Excuse me, I didn't understand the last part.
    Ms. Jayapal. Higher education, how much does higher 
education cost? Is the majority of the cost covered by the 
government or are students covering that?
    Mr. Marti. So university level education usually costs 
about $700 per semester in terms of tuition for a research 
university.
    Ms. Jayapal. I am sorry, let me just cough a little bit 
into the microphone. $700 per semester?
    Mr. Marti. Right, for research universities. And a 
university of applied science, I believe it might be a little 
bit higher, like $1,000 per semester. But overall, for a 
bachelor, it might be below $7,000.
    Ms. Jayapal. $7,000, okay. Dr. Annen.
    Ms. Annen. I can say almost the same numbers for Germany. 
So--
    Ms. Jayapal. Okay. And Mr. Bradley?
    Mr. Bradley. It is a bit more complicated. So it is a co-
contribution between the federal government and students. The 
students' fees are subsidized by the government, but all 
students in Australia have access to an income-contingent loan, 
which is not required to be repaid until students start earning 
above a certain threshold.
    Ms. Jayapal. So not required to be repaid even if they are 
taking a loan. So I think that is an important point, because 
when you look at completion rates, you also have to look at 
some of the factors that drive why students don't complete.
    Let me go to--women's participation in apprenticeship 
programs has been something I have been looking very closely 
at, and in the United States, it is devastatingly low. Only 
about 7 percent of apprentices nationwide are women. I think in 
Australia it is 25 percent are women. In Germany, about 37 
percent are women.
    So, Dr. Annen, what strategies have been particularly 
successful in making apprenticeships more attractive or 
accessible to women?
    Ms. Annen. I wouldn't even say that we have a big problem 
with low participation of females in apprenticeships. It 
depends on the occupation, though there are typical male-
dominated occupations, like manufacturing or construction, for 
example, and there are also occupations dominated by women, 
like education and care and typical occupations like this.
    But we have programs like called Girls' Day or Boys' Day, 
where we try to promote gender-neutral vocational choices. And 
also, companies have marketing concepts in place to attract 
more female apprentices, especially in IT or sectors like this 
where they have a low participation of females so far.
    Ms. Jayapal. In the United States, registered 
apprenticeships provide standardization of pay, and it actually 
limits the potential for wage discrimination based on gender. 
Can you explain how Germany's wage standardization system works 
and how that helps ensure equal pay for equal work?
    Ms. Annen. So I can speak for the apprentices, and I think 
there is equal pay for both genders. And so the payment for the 
apprentices is based on the collective wage agreement that is 
agreed upon by the social partners in each sector. And besides, 
there can also be recommendations by the chambers in place 
about what should be paid to the apprentices. And so employers 
can a little bit undercut or exceed this payment, but more or 
less it is in the same range, and it is about an average 850 
euro a month what they get.
    Ms. Jayapal. Yes, that is very helpful. I mean, I just 
think that standardization of pay is very, very important, 
because it helps on that piece.
    The wage progression piece is also important, and it is 
important that individuals who complete apprenticeships also 
have the opportunity to pursue a higher education degree if 
they so choose.
    Dr. Marti, you talked about no dead ends in the Swiss 
apprenticeship system. Could you speak about why that is so 
important?
    Mr. Marti. I think it is also very important for the image, 
apprenticeship paths, because young people always know that 
they can do an apprenticeship and they know that afterwards 
they have a profession. They learned a profession. They can 
start working, but they would always have the opportunity to 
move on and go to university. So I think it clearly helps the 
image of the apprenticeship.
    Ms. Jayapal. Thank you. And what is the minimum wage in 
your countries, out of curiosity?
    Mr. Marti. The median?
    Ms. Jayapal. Minimum wage. Minimum wage, yeah.
    Mr. Marti. We don't have a legal minimum wage, to my 
knowledge. There are only recommendations.
    Ms. Jayapal. Because it is set by a board, correct?
    Mr. Marti. Sorry?
    Ms. Jayapal. It is set by a board, is that how it--
    Mr. Marti. I know that there are recommendations, but I 
don't think they are legally binding, but I am not sure.
    Ms. Jayapal. And do you have a sense of what is the--
    Mr. Marti. I can give you maybe a little bit of an idea. 
After an apprenticeship, the professions I know, when you 
graduate from apprenticeship, usually at the very young age 19 
or 20, you earn, I would say, around $4,000 per month.
    Ms. Jayapal. $4,000 a month.
    Mr. Marti. Per month after an apprenticeship, I would say 
on average. Like in the apprenticeship field I was, I think it 
was a little bit higher, but that was 20 years ago.
    Ms. Jayapal. But that would be $48,000 a year. A $15 
minimum wage would only be $30,000. This would be $48,000.
    Mr. Marti. It depends really which occupation we are 
talking about. It can go higher.
    Ms. Jayapal. Thank you so much.
    I yield back.
    Chairwoman Davis. Thank you.
    Ms. Stefanik.
    Ms. Stefanik. Thank you, Madam Chair.
    Dr. Annen, in your testimony, you mentioned that the 
graduation rate of apprenticeship programs is higher than that 
of students in traditional higher education. Low completion 
rates is something that--it is an issue that we are facing in 
this country that we are trying to improve upon. What do you 
think are the major reasons that we see a higher graduation 
rate in these apprenticeship programs?
    Ms. Annen. I think it depends on the individual, of course, 
but I think there is a high motivation. So you are very much 
involved in the everyday business in the company. And the 
company has a big interest that they complete the 
apprenticeship successfully.
    So I think that there are a lot of people around the 
apprentice who take care of them and there is a lot of 
monitoring. There is this intermediate examination when they 
see how well they are doing in the apprenticeship. And 
afterwards when they are not doing very well, there are some 
adjustment measures in place. So the companies try to take care 
of it, that the apprentice actually reaches the aim of the 
apprenticeship.
    And I think in higher education, it depends if you are in a 
university or a university of applied science, but there are 
less people who actually take care and who monitor the success 
of the student. So I think that is one element on what I would 
say makes it more successful, that the completion rate is 
higher.
    Ms. Stefanik. Thank you.
    Mr. Bradley, in your testimony you, mentioned that the 
length of time to complete an apprenticeship is determined 
through a competency-based progression. How does this approach, 
instead of mandating a specific one-size-fits-all length of 
time, how does that benefit students who are deciding to change 
pathways or begin a program after already gaining experience in 
the workforce?
    Mr. Bradley. So, again, it depends on the occupation, I 
guess, we are looking at. It is not a duration that kind of 
qualifies you to be a technician tradesperson, whatever, but it 
is how well-skilled are you. So the training packages that are 
developed, in consultation with industry, reflect that. And it 
is this is what we need, this is what is required, so this is 
roughly how long it takes.
    I would probably answer that question by going back to the 
qualifications framework, where the amount of study that you do 
will qualify you for a qualification up to a certain level. So 
maybe certificate 2, certificate 3. If you choose to leave 
early and you have done an amount of study, 6 months, a year, 
and that qualifies you for one of the lower qualifications even 
though you are stretching for a higher one, you will still be 
able to walk away with that, at least walk away with something.
    Ms. Stefanik. Thank you.
    I yield the balance of my time to the Ranking Member of the 
full committee, Dr. Foxx.
    Ms. Foxx. Thank you, Ms. Stefanik.
    I want to build a little bit on some comments that were 
just made. A persistent problem we have with the apprenticeship 
system in the United States is the disappointing stigma 
attached to models other than what we have known as, quote, 
traditional postsecondary education at a college or university.
    Despite the consistent evidence of success for 
participants, there still seems to be a hesitance on the part 
of some to enter into apprenticeship programs. I have spent 
years trying to combat the stigma and championing the idea that 
all education is career education.
    And to build on the comment about what has been done to 
change the attitude, what factors do you think have led to the 
success you have experienced in building a culture where 
apprenticeships are such an integral and accepted component of 
education? And if each of you would answer that briefly. We 
have 1 and a quarter minute.
    Mr. Bradley. Just real quick. So I guess there are two 
things that I will point to. And thank you for the question. 
Two things that I will point to. One is the Australian 
Apprenticeships Ambassadors Program, which has recruited 
prominent Australians, particularly from different sports 
fields, so from the National Rugby League, for example, or the 
Australian Football League, who have come up through the 
vocational or apprenticeship ranks themselves who now act out 
in the community and say, this is what I have done, this is how 
I learned, this is where I have got to, and what a wonderful 
idea that was. That is one.
    The other thing I will point to was a joint campaign 
between the industry body that represents our technical 
colleges and our research universities, the group of eight, who 
came out together. So you had the community colleges and the 
research universities who came out together and said that there 
needs to be a seamless pathway from vocational training to 
higher education and to research. These sectors are working 
together.
    Thank you.
    Ms. Annen. I think for Germany, I can say that the 
companies themselves that train the people, the 
apprenticeships, and so they trust what they do themselves. And 
they have developed training standards, so they also know that 
it is adjusted to what are their needs.
    What they don't know necessarily about higher education, 
so, of course, they need also graduates from higher education. 
But for the apprenticeship, there is just a high transparency. 
So they know what is in it. They know the standard. They 
developed it, and they know how it is trained, so they trust 
the result and the outcomes and that is why they want to hire 
the people. And that is why it is kind of successful.
    Chairwoman Davis. I am going to take the Chair's 
prerogative and let Dr. Marti finish your question.
    Ms. Foxx. Thank you, Madam Chair.
    Mr. Marti. I think the success actually speaks to a certain 
degree for itself. But also, what we did, we streamlined the 
permeability within our overall education system, and I think 
that contributed a lot to the image also of the apprenticeship 
system.
    But also, the fact that the apprenticeship model takes 
place in a dual way. Like practice and education in a school 
has a stimulating effect on many young people, because they 
know why they learned that.
    Ms. Foxx. Thank you, Madam Chair.
    Chairwoman Davis. Thank you, Dr. Foxx.
    Mr. Takano.
    Mr. Takano. Thank you, Chairwoman Davis, for this hearing. 
And thank you to our witnesses for providing your insight into 
this growing industry in your respective countries.
    These international models provide great examples of what 
successful and high-quality apprenticeship programs look like. 
While we have some successful registered apprenticeships in a 
few of our States here in America, we also have a lot to learn 
from you all on how to implement our apprenticeships on a 
larger scale.
    The Trump administration established a task force to study 
apprenticeships, and while it recommended that there are 
apprenticeship opportunities in every high school in America, 
there has not been a clear plan on how to make this happen.
    So here is a question I have for every one of you: What are 
the specific steps your countries have taken to lead such high 
participation in apprenticeships while students are still in 
school? Starting with Mr. Bradley.
    Mr. Bradley. So I think the answer to that question is to 
say there is a holistic view here. So, one, we have wanted to 
bring in flexibility, local industry, local knowledge into the 
design of different courses and different apprenticeships. So 
that flexibility and that kind of input from industry I think 
has been very, very important.
    At the same time, you need to have the quality assurance 
that sits on top. So we have a national regulator that sits 
across our vocational sector to ensure that certain competency 
standards are met and the student experience is a positive one. 
Our quality assurance bodies, we have one for the vocational 
sector and one for higher education. It is a bit more than just 
what is taught and what is specifically being offered as part 
of a degree or as part of a certificate or diploma course, but 
they also go into questions about sexual assault on campus, 
freedom of speech. What is the ultimate student experience like 
as you are undertaking this course?
    Mr. Takano. Great. Thanks.
    Dr. Annen.
    Ms. Annen. Yeah. I think in Germany, after you finish your 
full-time compulsory education, you have got the choice of 3 
more years of compulsory part-time education. That can be 
vocational or general education. So it gives students, young 
people the choice. They can choose if they want to go more to 
what is a vocational track or more a general track, but they 
afterwards still have the opportunities to go into higher 
education, to go into an apprenticeship.
    And, yes, I think that is why the participation in the 
system is that high. And I think it is a lot about the 
reputation that Dual VET has in Germany. So after even if you 
complete your A level, it is an opportunity for people to build 
a good career on this.
    Mr. Takano. And, of course, so they are not having to 
choose between going to an apprenticeship and also being able 
to afford a regular higher education. It sounds like it is very 
affordable in Germany.
    Ms. Annen. I think both opportunities are very affordable. 
So I don't think that the financial aspect is a big criteria 
for young people. So in the apprenticeship, they get paid from 
the companies. In the higher education, as you have heard from 
both of us, it is not like they have to pay high tuition.
    But I think the reputation of vocational training is very 
high in Germany. So that it is not like you do this vocational 
training and, as has been asked before, you end up in the 
occupation for the rest of your life. It offers a broad variety 
of opportunities afterwards.
    Mr. Takano. Dr. Marti.
    Mr. Marti. I think it is similar. The apprenticeship 
pathways are just seen as very relevant. And as we have 
apprenticeships in 230 different fields, there is something for 
everyone in a way. Because in school you measure success with 
grades, and in an apprenticeship, yeah, you have a few 
subjects, but apprenticeships, it can be so many different 
things. You can be a music instrument builder. You can do an 
apprenticeship in banking, a lab technician, construction 
worker, chef, so many fields.
    So there is almost something, probably something for 
everyone, and I think that attracts people. That is why we have 
a quite consistent percentage of a bit more than two-thirds of 
an age cohort going into apprenticeship.
    Mr. Takano. Thank you.
    Mr. Bradley, in your testimony, you noted that Australia 
provides an incentive of about $4,000 to employers at the time 
of completion of the program, as well as special incentives. Is 
that an amount per apprentice or per year?
    Mr. Bradley. One is up to $4,000. I should make that clear. 
There are payments paid to the employer upon commencement and 
completion.
    Mr. Takano. But is that per student or is that just to be--
    Mr. Bradley. That is per apprentice.
    Mr. Takano. Per apprentice?
    Mr. Bradley. Yes.
    Mr. Takano. So they get $4,000 per year per apprentice--or 
for completion?
    Mr. Bradley. My understanding is that the employer will 
receive a payment for taking on an apprentice and once they 
complete the apprenticeship as well.
    Mr. Takano. That is per apprentice. That is amazing.
    I yield back, Madam Chair.
    Chairwoman Davis. Thank you.
    Dr. Foxx.
    Ms. Foxx. Thank you, Madam Chair.
    And a minute ago, I just jumped into my question, and I 
want to say thank you all to being here today and sharing your 
expertise with us and helping us better understand the programs 
that you have operating. So thank you very much for coming.
    Dr. Marti, I appreciate your discussion of the public-
private partnership in Switzerland's apprenticeship model--and 
I know some of my colleagues were able to visit there. I was 
not.--and the role of employers in designing and updating 
programs. I agree this is absolutely vital to ensuring students 
have the skills necessary to be competitive in the labor 
market.
    So tell us what you have done in Switzerland to integrate 
the apprenticeship system with the needs of employers and why 
this is important.
    Mr. Marti. The employers are really in the driver's seat 
when it comes to designing the curricula of the apprenticeship. 
Like whatever happens in the workstreams where apprentices 
learn in a company or with any employer, those needs are 
defined by the employers. The federal government, however, of 
course, reviews those curricula in order to make sure that they 
are consistent and consistent for a profession, but the 
definition of the needs is coming from the employers.
    Ms. Foxx. And I am assuming that some of this has to do 
with the labor market. Do you make adjustments in the slots 
that are available? I am sure employers must do that. Does the 
government have any role in playing, in deciding, look, we can 
look down the road and we know we are going to have X positions 
empty?
    Mr. Marti. The government does monitor it, but it is a free 
market. Currently, this market works in favor of the 
apprentices, because there are many more open positions than 
there are young people entering apprenticeships. The reason is 
just demographically. We had the opposite in the late nineties 
until about 2010, where we had too few apprenticeship 
positions. Then the government, like, was talking to the 
employers to incentivize them to offer more apprenticeship 
positions, but not with subsidies.
    So it is a little bit of an up and down. Now we see 
stronger age cohorts coming up. So in 10 years' time, I think 
the market might be a little bit different than now, but then 
again, we might also have new apprenticeship fields. It is 
really a market.
    Ms. Foxx. I think it is really important what you said 
before about there are 230 fields. I think in the United 
States, apprenticeships have been almost always thought about 
as being in the construction area, and that has been one of the 
things I have been talking about for a long time too is we need 
earn-while-you-learn programs. I don't care what you call them, 
apprenticeships or whatever, but earn-while-you-learn programs.
    I would like to ask you another question, Dr. Marti. Given 
how young Swiss students start their apprenticeships, could you 
talk more about how students determine what apprenticeship they 
want to pursue?
    Mr. Marti. Thank you. Yes. They usually start at age 14, 
15, around that time, the second and last year of compulsory 
education that ends around 15, 16, depending when they are born 
in the year. So during the last 2 years, it is quite an 
intensive process.
    Usually, the homeroom teacher is reserving one lesson per 
week to overviews on what is possible. They would visit the 
career counseling center, which is kind of a regional 
infrastructure in Switzerland. Every region has one, where they 
can go for counseling like on an individual level. In the 
classroom, it is class wide. There is also an individual level.
    But employers, companies, they do also a lot. So they offer 
job shadowings. You can go there and try out whether that is 
something that you would be interested in. So there is quite a 
lot going on in that way, yeah.
    Ms. Foxx. I want to go back to something that was said 
earlier. And I am going to ask you all for a set of numbers 
about--we compare all the time what people earn by getting a 
baccalaureate and not getting a baccalaureate. And I would like 
to ask you all, not now, but I will submit questions to you 
about apprenticeships versus higher ed.
    But I want to ask you about, really quickly, this figure 
you gave about $7,000 total for a baccalaureate degree, that 
does not count housing, that does not count food, any of those 
auxiliary expenses, right?
    Ms. Annen. In Germany, basically what you pay for the 
institution is almost nothing. You pay for the services of the 
university and you pay for your housing and stuff, but there 
are also subsidies by the government. So you can get grants and 
you can also get money from the government, and that supports 
you.
    Ms. Foxx. Okay.
    Chairwoman Davis. We will finish that up at another -
    Ms. Foxx. Yes, ma'am, thank you.
    Chairwoman Davis. Thank you very much.
    Ms. Bonamici.
    Ms. Bonamici. Thank you, Chair Davis and Ranking Member 
Smucker. And thank you to our witnesses. I am glad we are 
having this hearing today to learn about successful policies 
that can help people access better paying jobs and meet the 
demands of our local employers. I often talk about having a 
path for everyone, and not everyone is on the same path and we 
have to have those opportunities.
    In my home State of Oregon, we are fortunate to have 
numerous examples of strong registered apprenticeship programs 
that include quality training, portable credentials, high 
wages, and a pathway to a permanent job. And one example, we 
have the Oregon Manufacturing Innovation Center, also known as 
OMIC. They are bringing together industry leaders in advanced 
manufacturing with local colleges to develop a registered 
apprenticeship program to complement the advanced manufacturing 
facilities, actually based off a model in Sheffield, England. 
And this is a collaboration that is going to provide growth, 
innovation, and efficiency in advanced manufacturing, plus a 
more skilled workforce. It is a tremendous opportunity for 
Oregonians and the type of partnership I think that we are 
looking for.
    And as we evaluate ways to expand registered apprenticeship 
programs in the United States to new sectors of the economy 
beyond manufacturing and building trades, we have an 
opportunity to learn a lot from what you are doing and your 
robust support for apprenticeship programs.
    Mr. Bradley, I wanted to ask you, do Australia's registered 
training organizations provide apprentices with the wraparound 
services, for example, childcare, transportation, mentoring, 
uniforms or work attire, tools? And how, if so, does the 
inclusion of these support services affect the success and 
retention of the apprentices?
    Mr. Bradley. Thank you for the question. So part of the 
program you will have access to what is called the Australian 
Apprenticeship Support Network, which provides that kind of 
more pastoral care, mentorship, industry-specific mentorship, 
along throughout the component of the apprenticeship. You will 
have access--in certain occupations, you will have access to an 
income-contingent loan, which will allow you to do those 
upfront purchases if you have to buy tools, uniforms, whatever 
it is, those kind of additional living costs to begin your 
apprenticeship as well up to around $21,000, which I think is 
rather sizable.
    Beyond that, you mentioned childcare, transportation. 
Childcare I want to say will be a private service. I don't 
think there is a specific program or facility to provide that. 
And then transportation, I think it will vary from state to 
state whether or not you are treated in the same way as a 
university student or a college student while you are doing 
your apprenticeship as well, whether or not you get a 
concession.
    Ms. Bonamici. Thank you. We found that oftentimes those can 
be barriers to people actually completing an apprenticeship.
    And then I wanted to ask each of you, how do your country 
systems engage with stakeholders, with the employers, with 
labor unions, with apprentices, with localities, in developing 
your programs? And have these partnerships allowed you to 
expand programs to new occupations or sectors?
    Dr. Annen?
    Ms. Annen. So I think the main characteristic of our system 
that it is consensus-based. So we have all the stakeholders 
together at the table once we start the idea of creating a new 
apprenticeship or a new occupation or if we are updating one. 
So they come together and they have to agree upon the standard 
that we want to set. So it is like this consensus principle is 
something that is very dominant in our system, I guess.
    Ms. Bonamici. Thank you.
    Dr. Marti, how do you engage stakeholders, and have you 
been able to expand to new occupations or sectors?
    Mr. Marti. It is a bottom-up process. So, usually, it is 
the employers who start talking to their professional 
organization they are a member of. And these professional 
organizations, they aggregate that, and then they talk to the 
government, to the federal government. And the federal 
government would formally decide to start a commission where 
all the partners, probably similar as what you said, would be 
involved. Also, the cantons, the employers, as well as the 
professional organizations and the federal government.
    Ms. Bonamici. And, Mr. Bradley, how do you engage 
stakeholders, and have you been able to expand to new 
occupations or sectors?
    Mr. Bradley. So I think industry input is an important part 
of the apprenticeship program as well. Not just in terms of 
identifying new programs, but importing into the training 
packages the competencies, what qualifies and so on. It is a 
rather flexible system I will say. There are over 500 
occupational pathways through the apprenticeships and 
traineeships that are on offer. It is being expanded into new 
digital fields, advanced manufacturing, Industry 4.0, 
cybersecurity and so on as well.
    Ms. Bonamici. Terrific. Thank you.
    And I yield back.
    Chairwoman Davis. Thank you.
    Mr. Cline.
    Mr. Cline. Thank you, Madam Chair. And the Ranking Member, 
I want to thank you as well. I want to thank our witnesses for 
being here.
    I want to follow on the great questions of Ms. Bonamici 
talking about the great work that Oregon is doing. It sounds 
like some exciting things are happening out there. Virginia is 
also doing some great things with job training programs. I get 
to brag a little bit. CNBC just came out with their top States 
to do business, and Virginia was once again number one.
    So we are doing some great innovative things in Virginia, 
and part of that is because we have that flexibility. And I 
want to actually point out that the administration is following 
up on that by trying to remove some of the top-down 
administration of these apprenticeship programs. The Task Force 
on Apprenticeship Expansion recommended the creation of a new 
recognition for apprenticeship programs that choose not to 
register with the Department of Labor known as the Industry-
Recognized Apprenticeship Program, IRAP. These apprenticeships 
will be overseen by third parties that may include trade and 
industry groups, companies, nonprofits, unions and joint labor-
management organizations. They are complementing these 
federally registered apprenticeships, but they are not held 
back by the same bureaucratic restraints that prevent 
flexibility and program requirements that are crucial to 
meeting the varying needs of different industries.
    And I would argue that the industries that are present in 
Virginia are often different than the industries that are 
present in a State like Oregon. So you need that flexibility to 
be able to adjust and update.
    So I know that you all are managing these programs in your 
own countries on a smaller scale, but when it comes to the 
autonomy of your localities to adjust, do your localities have 
that autonomy? Are they able to adapt, or is it more of a top-
down model where you have to go to the entity that is 
regulating on a national level to get that adjustment made? Let 
me start with Mr.--well, let me start with Dr. Annen.
    Ms. Annen. So I think the magic word in Germany is that our 
training standards are a minimum standard. So we agree upon 
something that is always contained in the certificate once you 
finish your apprenticeship. And besides this, we have got a lot 
of flexibility for the companies. They can actually add content 
to it. They can adjust the things to what their company-based 
needs. And also, we try to do our standards, which are company 
and technology neutral, so that it means that it is on a very 
abstract level how we try to establish those standards, that it 
leaves the flexibility that the companies need.
    Also, we are reforming our training regulations every 5 to 
10 years, so within that time, of course, companies have the 
flexibility to adjust their training to what the actual needs. 
But what we have in our training regulation is the minimum 
standard that every company can rely on once you hire an 
apprentice in this occupation that at least they have what the 
content of this standard is.
    Mr. Cline. Thank you.
    Dr. Marti.
    Mr. Marti. Thank you. Yeah, it is similar. You can always 
do more than what is regulated, but for each occupation, it is 
valid federally, like nationwide. So the minimum standards are 
really nationwide valid.
    Mr. Cline. What percent of your education budget is funded 
nationally? Do you fund it--is it administered--
    Mr. Marti. Like for the apprenticeship system, it is $9 
billion in total. About 5.2 is from the employers, 60 percent, 
and about 3.6 is from the cantons, and--
    Mr. Cline. But even your secondary school system, is that 
administered federally or is that locally?
    Mr. Marti. That is cantonal and locally.
    Mr. Cline. And locally, okay.
    Mr. Marti. Yes.
    Mr. Cline. All right. Mr. Bradley, what about the 
flexibility for your regions?
    Mr. Bradley. So I think that was a good way to phrase it as 
well is it provides a minimum standard, the system. I think 
what is important is that we have a nationally recognized 
qualification. It is market-orientated, quality assured, 
stackable, portable.
    We have just completed a rather significant review of our 
vocational education sector, the Joyce review, and that has 
been all about how do we strengthen quality assurance, speed up 
the qualification development, provide simple pathways to 
getting new apprenticeships up and running. And there is a task 
force that has been established to implement those changes.
    Mr. Cline. In 2016, you all committed to the new 
alternative delivery pilots for apprenticeships with the aim of 
increasing promotion growth of apprenticeships. What results 
have you seen from these pilots?
    Mr. Bradley. I can't comment on the specific program. At a 
macro level, the number of apprenticeships and those commencing 
have been relatively stable. So there has been a halt of the 
overarching decline over a couple of decades, but it has been 
relatively stable for the last, say, 5 years. But for a pilot 
program, I think it is going to be pilot specific, small.
    Mr. Cline. Thank you.
    I yield back.
    Chairwoman Davis. Thank you.
    Dr. Adams.
    Ms. Adams. Thank you, Madam Chair, and thank you, Ranking 
Member Smucker, as well. Thank you for convening this hearing.
    And to our witnesses, thank you for your testimony.
    I want to congratulate you all for the successful programs 
that you oversee in your respective countries, and I 
particularly want to recognize Dr. Marti.
    The Max Daetwyler Company, a Swiss entity, founded an 
apprenticeship program in my district in North Carolina named 
Apprenticeship 2000. Folks at Central Piedmont Community 
College rave about it, as the students complete associate 
degrees in mechatronics as well as journeyman certificate from 
North Carolina. And it allows them to immediately work in a 
technical field, including some at Daetwyler itself.
    So thank you, Dr. Marti, for your work as well as the work 
of the Swiss companies that have subsidiaries in the U.S.
    With that, I want to ask all three of you about how 
employers in your home countries are investing in your 
respective apprenticeship programs. I was happy to see that 
your models included the requirement of contracts between 
employers and apprentices, similar to our registered 
apprenticeship system in the U.S.
    Dr. Marti, why is this contract so important, and what 
assurances does the contract provide to both the employers and 
the apprentices in your system?
    Mr. Marti. Thank you. Yeah, the contract between the 
employer and the apprentice regulates the duration of the 
apprenticeship. Of course, the occupation, the salary that 
young apprentices get, which is a very modest salary. It is 
really small, but it is seen as education primarily. So because 
the apprentices are typically very young, this contract needs 
to be signed also by a parent. They sign it together, and on 
the other hand, of course, the employer.
    Ms. Adams. Great. Thank you.
    Dr. Annen, I also notice that there are requirements for 
wage progression as the apprentice's skills and competencies 
increase. So why is this wage progression so important for the 
system?
    Ms. Annen. I think over the training time--so we have done 
a couple of analyses in my institute, and I am happy to send 
you the concrete numbers afterwards, but the net cost that an 
apprenticeship costs the company is, on average, 11,000 euro, 
and that is subtracting the benefits that they get from the 
productive apprentice. And, of course, the apprentice gets more 
productive over the training period. And it also depends from 
occupation to occupation. It differs, because in some 
occupations, even the benefits exaggerate the cost that the 
companies invest in the apprenticeships. So it depends on the 
occupation. And, in general, the investment is very low in 
comparison to having a well-skilled and adjusted to what your 
company needs trained apprenticeship at the end of those 3 
years.
    Ms. Adams. Okay. Dr. Marti, can you tell me how the funds 
within your apprenticeship systems are distributed and how much 
is spent at the federal level, the state level, and what are 
the investments in the education system?
    Mr. Marti. Of the overall $9 billion, about 5.2 are coming 
from the employers. And they are used to pay the salaries of 
the apprentices and also to pay the instructors, mainly. And 
the money that comes from the cantons, which is a little bit 
less than $3 billion, is used to pay the vocational schools, 
the teachers in the cantons, because each canton has vocational 
schools. So there is also an infrastructure of vocational 
schools across the country, and different employers like to 
start an apprenticeship if the school is already there.
    And the federal government is investing, and I think that 
is interesting. They invest also in pilots to further develop 
the program to try out new things, and also is commissioning 
research into the system, into specific aspects of the system, 
in order to gather information for an evidence-based reform, 
for instance.
    Ms. Adams. So what are the percentages in terms of 
expended, the state versus the federal?
    Mr. Marti. So, yeah, it is three-quarters of the public 
funding, three-quarters comes from the cantons, our states, and 
just a quarter from the federal government. Overall, it is 10 
percent from the federal government when you include the whole 
budget, including what the employers contribute.
    Ms. Adams. Okay, great. Thank you very much.
    Madam Chair, I yield back.
    Chairwoman Davis. Thank you.
    Mr. Walker.
    Mr. Walker. Thank you, Madam Chair.
    Thank you all for being here today. I have enjoyed my time 
in Australia, Dr. Bradley, in Sydney, Alice Springs in Darwin. 
Of course, I did heed warning of the crocodiles there on the 
Darwin Beach and made sure I was staying far clear from that.
    I do have a couple questions there for Dr. Marti, if I 
could start. I will be introducing legislation to highlight the 
importance of expanding access to apprenticeships for high 
school students and other populations. As you know, the 
Switzerland apprenticeship program is available to students 
beginning I believe it is at age 16.
    Can you speak to the additional value added to students' 
long-term workforce development when they have access to 
apprenticeships at an earlier age?
    Mr. Marti. I am not sure whether I understood it correctly. 
At even an earlier age than 16?
    Mr. Walker. Yes.
    Mr. Marti. Yeah. I mean, in some cases, apprenticeships 
start at age 15. It depends when they were born in the year. 
Sometimes when they graduate from compulsory school after 
nine--like two kindergarten years and nine school years, they 
would start at age 15. And that just works. That is no problem. 
I am not aware of younger than 15.
    Mr. Walker. Thank you. In looking through your testimony, 
was I correct to see that 90 percent of the funding for, you 
said, apprenticeships comes from the private sector or from 
employers and about 10 percent contributed from the federal 
government? Are those numbers correct?
    Mr. Marti. It is 60 percent from the employers and 30 
percent from the cantons and 10 percent from the federal 
government, overall.
    Mr. Walker. Can you give me a 20-second description of the 
cantons, make sure that for people that are listening or 
watching they understand what that is.
    Mr. Marti. Sorry?
    Mr. Walker. The cantons, c-a-n-t-o-n-s, can you explain 
what those are? Are those employers as well? Can you explain?
    Mr. Marti. The cantons? I am sorry, the cantons is 
basically the equivalent of a State here in the United States.
    Mr. Walker. Yes, right. Okay. I am making sure people were 
clear in that regard.
    Based on these funding proportions, would you say that the 
private industry investment in Switzerland's workforce 
development is equal to, if not more beneficial, than simply 
increasing the federal government's role in the apprenticeship 
program? Place the value of the importance. What is more 
important here?
    Mr. Marti. I think it is a win-win situation. I mean, 
employers really have a big interest in investing in 
apprenticeships, because that is their future workforce. But 
that is also very interesting to see. It is actually beneficial 
for them to start apprenticeship programs already during the 
apprenticeship. So they invest a little bit more than $5 
billion U.S. dollars per year, all employers together in 
Switzerland, but they get about $5.6 billion, $5.7 billion out 
of it.
    Mr. Walker. They will get a good return is what you are 
saying.
    Mr. Marti. So it is almost more than the stock market.
    Mr. Walker. Thank you for that.
    I would like to yield my last two minutes to Representative 
Virginia Foxx.
    Ms. Foxx. Thank you, Mr. Walker. I appreciate that.
    You all have alluded and spoken directly, both, to the fact 
that employers are very engaged in what is going on.
    Dr. Annen, you said that companies deliver 70 percent of 
the education that is in the system. You also said a few 
minutes ago that there are minimum standards set by the federal 
government and then employers can change throughout the year--
is that correct, what you said?--to meet the needs of the 
changing economy, technology, those things.
    Ms. Annen. Exactly. So the biggest part of the training is 
provided by the company, so comparable to Switzerland, it is 
like either 3 days or something in company and 2 or 1 day at 
school. And, of course, employers have the flexibility; they 
can always add more training, more competencies.
    As I said before, it is a minimum standard to make sure 
that this is at least guaranteed once you get the certificate 
at the end. And this is what is also contained in the final 
examination, but it depends really on the brand or on the 
sector. We have got some occupations who have a very quick 
turnover, where we reform them every 3 or 4 years sometimes or 
5 years. So it depends on the dynamics of the sector.
    And sometimes, as you said, also for Switzerland, they turn 
to the Ministry and they are like, okay, we need to adjust the 
training regulation and we can't work with this any longer. But 
in the meantime, they have the flexibility for sure to do more 
training or to do it according to the innovative standards in 
the sector.
    Ms. Foxx. A real quick question, Dr. Marti: You mentioned 
230 fields where there are apprenticeships. Do you have an idea 
how many new fields have come in the last 20 years because of 
changes in technology?
    Mr. Marti. It is difficult in terms of changes in 
technology, but I think mainly in the IT field. I don't know an 
actual number. But what we also did, we integrated the 
healthcare, social care, and arts fields into the regular 
apprenticeship system in the early 2000s, but they already 
existed before. So this was more a streamlining of the overall 
system.
    But I would say it is mainly in the IT field, like 
mediumistic or an ICT technician. I think those were probably 
the fields that were most--
    Ms. Foxx. I thought that might be the case. Thank you. 
Thank you.
    Chairwoman Davis. Mr. Harder.
    Mr. Harder. Thank you, Chairwoman Davis.
    I represent California's 10th Congressional District in the 
California Central Valley, and what I have noticed in our 
community is there are a lot of seeds of apprenticeship 
programs that are successful, but they haven't quite grown into 
the trees that you have in Switzerland or Germany. We have sort 
of the beginnings of a model.
    There are a couple that I have toured that I really admire. 
The National Agriculture Science Center in Modesto; VOLT, which 
basically helps train people in the construction industry and 
as apprentice mechanics and all the rest.
    One of the things that I think I would love to really dive 
into is how you got the buy-in both from the government 
entities as well as from the employers themselves to invest 
such a significant amount in the apprenticeship industry. 
Because I view, you know, our model as we know what works; we 
just haven't really scaled it up in a lot of our communities.
    Dr. Annen, I would love to start with you. Can you speak to 
the support of employers in particular? And how do you view the 
German model as successful in getting employer buy-in at such a 
large scale, $28 billion or more?
    Ms. Annen. I would say that in our country, the companies 
realize that it is in their own best interests. So they need 
the skilled workers and they need the ones that have exactly 
the skills that they need in the workplace. And with the 
training, vocational training, that is one of the best things 
how they can make sure that they have this workforce. And we 
need skilled workers especially.
    I mean, we have a demand in a variety of--we also need 
higher education qualified people, but I think we have got a 
big need especially for skilled workers in a lot of fields. And 
I think companies have realized that this is a good chance for 
them to actually provide these people for themselves and to 
train them exactly adjusted to what their needs. And so they 
have got a high motivation. It is in their own best interest, I 
think. And for the government as well.
    I mean, if I may quote Kennedy here, there is nothing more 
expensive than education, which is no education. So if you 
don't educate the people, afterwards you have way more cost 
when the people get unemployed. So that is why it is also in 
the interest of the government to invest in education to make 
sure that people get an employment afterwards.
    Mr. Harder. Thank you. And just to build off Chairwoman 
Foxx's question around new occupations. So my understanding is 
there are about 327 recognized occupations in Germany. What 
happens when there is a new occupation that is added? How do 
you build employer buy-in for that?
    Ms. Annen. So, first, we try to make sure--we often do 
research in advance and we ask. We do surveys and ask if there 
is really a need. And we also make sure that it is a long-term 
need, that it is not something that is just a short-term demand 
which can be maybe regulated in a different way than having a 
training occupation. And we also want to make sure that it is a 
broad qualification which is needed over time. So that is what 
we try to make sure.
    And then when we implement it, we also have everybody on 
board for it. And there is a lot of marketing from the 
chambers, from the umbrella organizations of the employers, 
from the trade unions. So they all try to promote this 
occupation. And we really check this very seriously before we 
try to establish a new training occupation to make sure that 
there is a need in the labor market. So once we do that, it is 
clear that there is a need.
    Mr. Harder. Thank you. I appreciate that.
    Dr. Marti, a question about the Swiss model. The other 
component here that I think is really important is the 
seamlessness of these models where you are actually able to 
start as an apprentice and go on and earn a Ph.D., like 
yourself.
    Can you speak to the importance of a nationally portable 
credential that apprentices earn at the completion of their 
degree? Can you share why you feel like that has been 
successful and how exactly that works?
    Mr. Marti. I think a portable degree is very important for 
the apprentices, of course, because so they can work 
nationwide, and also every employer in the country knows--an 
employer in Schierke knows when he or she sees a credential 
from Geneva what it is.
    And then for the seamlessness of moving into other 
pathways, it still, of course, depends a lot on the interest 
and aptitude of the young people. It is not that somehow you 
are obliged to move on, but still a large percentage of people 
do it because of their interest and aptitude, yes.
    Mr. Harder. Thank you. I appreciate that.
    I think the testimony that I have heard today has really 
confirmed the importance of apprentice programs, making sure 
that there is more routes to the middle class than just having 
a four-year degree here.
    And I think that the next steps are for us to make sure we 
can understand how to increase investments towards these 
apprenticeship programs, how we can create some of those 
seamless certification programs that have been successful in 
Switzerland and in Germany, and how to really make sure that we 
are bringing on our business and industry community to have 
some skin in the game as well.
    So thank you so much for all your time, and I yield back 
the remainder.
    Chairwoman Davis. Thank you very much.
    Mr. Timmons.
    Mr. Timmons. Thank you, Madam Chairwoman. Thank you to each 
of our witnesses today.
    I am going to give you my personal experience with 
apprenticeships. So I own two businesses, a CrossFit gym and a 
yoga studio, and both of them have an onboarding process to get 
new coaches. Instructors in the yoga studio, coaches in the gym 
are incredibly important, and it takes years to hone your 
skill, and you just don't start out that way.
    So in the gym, for example, we pay $15 an hour. We 
currently have three people in the apprentice--we don't call it 
that. It is a coach development program. And after a few 
months, they can then become coaches and we can hire them on 
full time. And so we have that and it has worked fantastic. We 
have developed a lot of great coaches.
    I personally have been through two apprenticeship programs, 
not in the formal sense, but I was in law school and I wanted 
to learn more about the courtroom. I wanted to see lawyers at 
work. So I went to a judge and I said, I would like to shadow 
you. I would like to be with you for as long as you let me. And 
so I did that for a few months and learned a great deal. That 
was unpaid.
    And then I wanted to be a prosecutor. So I went to the 
solicitor and I said--or district attorney, and I said, I 
really want to be a prosecutor. I appreciate that I have a lot 
I need to learn. And so I went and I ended up working there. I 
was paid very little. I worked there for 8 months before he 
hired me on full time. So it was great. I mean, I have had a 
lot of benefits to these programs where you learn skills, you 
develop them to be as competitive as possible in the labor 
market.
    So, interestingly, none of those had anything to do with 
the government. There was no Federal money. There was no State 
money. My business just does it because it is best practice.
    So I guess my question is, how do you in your countries 
find people for these programs? So I have never had any 
assistance. I just saw something I wanted to do and then I 
found a way to get the skills to do it.
    So when someone is in Switzerland, how do they pick? How do 
they find themselves in a program?
    Mr. Marti. A young apprentice, you mean?
    Mr. Timmons. Yes.
    Mr. Marti. It is really during the last 2 years of 
compulsory school that they start to look into possibilities. 
And on the other hand--and this is really why it is a market--
the employers, they want to have the people with the best 
aptitude for their field. So they also develop, for instance, 
tests. Often, the employers, they would ask you to try to pass 
a test, an exam in their field before they would consider 
hiring you.
    Mr. Timmons. So when you are in school, the counselor just 
says, you have paths now and what do you want to do? And you 
take a test and then you find the best fit?
    Mr. Marti. Usually, you do that already before you 
graduate, like in your last year--like, you sign the 
apprenticeship contract usually in your last year of compulsory 
school. And before you can sign that contract with the 
employer, the employer usually asks you to take a test that is 
typically, in many cases, developed by the company itself. I 
believe smaller companies, they share tests that are developed 
by other entities, but larger companies, they develop their own 
exams.
    Mr. Timmons. So is it government-run or is it business-run? 
Does the market dictate the outcome or does the government 
dictate the outcome?
    Mr. Marti. Those exams and also the decision to hire an 
apprentice, that is the decision of the employer. And, of 
course, we have public and private employers. And a Ministry in 
Switzerland typically also trains apprentices. A public 
hospital would train apprentices. A public university would 
also train apprentices. But primarily, it is private, private 
sector.
    Mr. Timmons. If you are a doctor, we have what is 
essentially an apprentice program. After you graduate medical 
school, you have to go and serve in a learning capacity first. 
So is that called an apprentice program as well or is it 
different for professional degrees?
    Mr. Marti. Like residency?
    Mr. Timmons. Yes.
    Mr. Marti. I mean, no, that is in the higher ed part of our 
education system. But you are right, in a way it is also dual 
in the sense that it is practical after theoretical studies, 
but it is clearly not an apprenticeship system to be a medical 
doctor. But a nurse, for instance, that is an apprenticeship.
    Mr. Timmons. The other two witnesses, similar, last 2 years 
of compulsory school you are driven into one of these programs 
or further education. Is that fair to say?
    Mr. Marti. You look exactly what fits you, and then you 
would start a healthcare worker apprenticeship after graduating 
from compulsory school. Exactly.
    Mr. Timmons. Thank you. I yield back.
    Chairwoman Davis. Thank you.
    Chairman Scott.
    Mr. Scott. Thank you.
    Thank you Madame Chair. I want to thank all of our 
witnesses. This is some very good information and will help us 
in our work designing apprenticeship programs.
    Let me ask you. The first question--I don't know this is 
aimed at--normally you would graduate from high school in 
America around age 18.
    Is that the case in your countries?
    Ms. Annen. I think in Germany compulsory full-time 
education is 9 to 10 years, so year around 15, and then it is 
another three years of compulsory part-time education and then 
you can do, if you are at a grammar school, for example, you 
can do you're a levels or if you are in a vocation school, it 
depends on which school you choose afterwards. But it is 
standard.
    Mr. Scott. Well, if you join--if you sign up for an 
apprenticeship, do you lose any of your otherwise available 
high school education?
    Ms. Annen. If you--can you repeat--
    Mr. Scott. If you sign up for an apprenticeship, is that in 
lieu of completing your high school education or in addition to 
your high school education?
    Ms. Annen. So, if you sign up for an apprenticeship, you 
need to have fulfilled the 9 to 10 years of full-time 
education; and, afterwards, when you sign up for an 
apprenticeship, you go to vocational school 30 percent of the 
time and that is your compulsory part-time education.
    So, you are doing this while you do the apprenticeship. You 
are fulfilling your part-time compulsory education. You invest 
three years of training.
    Mr. Scott. So that you would--you would get a high school--
do you get a high school diploma and then your high school?
    Ms. Annen. So, after apprenticeship, you get three 
certificates. You get one from the chamber which is the 
official recognized certificate. You get one certificate from 
the company which tells people how you performed in the 
workplace. And you get one certificate the from the vocational 
school, how you did in the vocational subjects and the general 
subjects.
    So have you three certificates at the end of an 
apprenticeship which one is from the school that you went to.
    Mr. Scott. One of the concerns about vocational education 
is at some models it is in lieu of what you would normally get 
in high school, and there are a lot of people that believe that 
if you don't get the complete high school education that you 
will be very much at a disadvantage if you later try to switch 
jobs. You need the basic education and that the apprenticeship 
or vocational education ought to be in addition to that.
    Mr. Bradley, can you comment on that?
    Mr. Bradley. So, in Australia your compulsory education I 
think is for 10 years and then they follow 2 years which the 
vast majority undertake are technically optional. You can begin 
an apprenticeship while at school and still complete the final 
2 years of your high schooling where you will end up with the 
equivalent of a high school diploma.
    Mr. Scott. But the apprenticeship does not diminish your 
otherwise compulsory education?
    Mr. Bradley. No, I would say it adds to it.
    Mr. Scott. You mentioned, Mr. Bradley, a concept that I 
think we call stackable. That is, when you get a credential, if 
you go a little further, you can add to that credential. Can 
you say a word about why that is important?
    Mr. Bradley. Sure. So, I think the two upsides, I suppose, 
to this, to stackable credentials, one, it is recognized as 
past learning. So, once you have completed a program and your 
competency level is to a certain extent, then the next 
qualification that you undertake you will receive credit for 
past learning and past activities.
    And, two, I would say that it gives you a path out as well. 
So, if you are committing to a three-year diploma or two-year 
diploma, if, after 6 months, a year, 18 months, you decide it 
is not for you or if you have another opportunity in front of 
you, it is not lost time. You are still walking away with some 
qualification, some credential that is recognized for your 
time.
    Mr. Scott. Are there some apprenticeships for jobs that 
traditionally require a four-year college degree?
    Mr. Bradley. Not to my knowledge. So, after an 
apprenticeship, you will receive the equivalent of at most a 
diploma which is the--
    Mr. Scott. Some jobs in finance or something like that, you 
traditionally get a four-year college degree.
    Mr. Bradley. Not in the formal sense, not what I would call 
an apprenticeship. That would be, once you have done a four-
year degree or the equivalent of sorts, certainly I think, you 
know, workplace learning is going to be a very significant part 
of where you go to next and from economic society to finance, 
of course, all those fields.
    Mr. Scott. Do either of the witnesses have apprenticeships 
for jobs that traditionally require a four-year degree?
    Mr. Marti. Not to my knowledge.
    Mr. Scott. Okay. Thank you.
    Chairwoman Davis. Thank you very much.
    Before we go to the next questioner, I want to go to Dr. 
Foxx who has an introduction to make.
    Ms. Foxx. Thank you very much, Madame Chairman.
    I have a program called Teacher in Congress where every 
year I bring two teachers up to shadow me for about 10 days, 
and the two teachers who are here from the 5th District are in 
the audience today. They are Jody Carpenter and Justin Colbert, 
and I just wanted to recognize them. They are both teachers in 
the public schools in the 5th District, and they are here to 
see how Congress works behind the scenes.
    So, thank you, Madame Chair, for allowing me to introduce 
them.
    Chairwoman Davis. Do they want to stand?
    Ms. Foxx. They are standing back there.
    Chairwoman Davis. Okay. They are there. Great.
    Thank you very much for being here.
    Okay. We are going to go next to Mr. Levin.
    Mr. Levin. Thank you very much, Madame Chair. Thanks for 
having this hearing.
    It is extremely important, the role apprenticeships can 
play in our workplaces, and I really want to talk about where--
why young people would be interested in this and I want to ask 
questions about that.
    Before, I would like to ask permission to enter into the 
record an article or really a program from PBS NewsHour about 
the need for more tradespeople after all the focus on four-year 
colleges. Okay. All right.
    [The information follows:]
 
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Mr. Levin. So, you know, Dr. Annen, I wanted to ask you 
about why young people would want to do this. There is a huge 
emphasis in this country about free college, everyone should go 
to college. The assumption is a four-year degree is the ticket 
to a decent life.
    And I don't think there is any economist that has a model 
of the economy that would require more than, generously 
speaking, 60, 65 percent of people to have a four-year degree. 
There are lots of other jobs that we need filled.
    But speaking from your experience, evidently one in two 
compulsory school graduates choose a vocational pathway, if I 
have that right, or something like that in Germany.
    What factors would you say make apprenticeships more 
appealing for students to choose a vocational pathway in 
Germany?
    Ms. Annen. Yeah, I think in Germany that the system itself 
has a very good reputation. So, it is very broadly known by the 
society and very well-accepted; and also we have counseling, 
like, in Switzerland, like, there are the chambers. There is 
our employment agencies. So, people actually know about this; 
and they don't know only about higher education as an option 
after they finish their general education so and also the 
income that they can make during the apprenticeship and also 
what they can earn afterwards if they do further training.
    So, I know a lot of people who actually were able to have a 
good career that pays just as much as if you would have a 
master degree, some comparable higher education qualifications.
    And we have also done some research about this. So, over a 
lifetime it might be that higher education pays off a little 
better but you make the money earlier in your career and it 
depends on the further and the continuing education and the 
willingness of yourself to do this lifelong learning. So, it 
brings you into employment very early; and it is very 
attractive.
    Mr. Levin. Do the minimum standards include wage standards 
in your minimum standards of your apprenticeships?
    Ms. Annen. We want to do this in our actual reform. So, 
actually at the moment the minimum wage is not valid for 
apprentices but now we are doing a reform and that is what we 
want to implement in the next year that minimum wage is also 
applied to apprentices.
    Mr. Levin. Thank you.
    Well, let me ask any of you who wish to respond. You have 
talked about that your Federal national regulations and laws 
that govern your apprenticeships are updated. How often are 
they updated, and what have recent updates to the legislation 
or regulations in your respective countries sought to achieve?
    So, here you are mentioning raising the wages. What other 
things have you been doing to update your, you know, your 
apprenticeship programs whether in Australia or Switzerland or 
Germany?
    Ms. Annen. If you are talking about the Vocational Training 
Act--
    Mr. Levin. Yes.
    Ms. Annen.--in 2005.
    Mr. Levin. Sorry.
    Ms. Annen. It is like if we see problems with the 
examinations or if we see problems with certain target groups, 
application, education, we try to adjust this. Talking about 
the training regulations, it depends, as I said before, on the 
occupation, so how dynamic the sector is. So, we are regularly 
updating this. It is something between I would stay 5 and 10 
years when we update them, depending on the occupation.
    Mr. Marti. Thank you.
    Yeah, it also depends what we are talking about like the 
broader reforms that take place probably every couple of 
decades. Like we had the last one in the early 2000s when we 
further streamlined the system and integrated professions that 
were previously not part of the apprenticeship model like in 
healthcare for instance.
    But for each of the those 230 occupations, we update them 
every 5 years at least, often also earlier because usually it 
is because of technological change.
    Mr. Levin. And that is at the Federal. You are at the 
national level.
    Mr. Marti. Yeah, it is always at the national level; but, 
of course, a company, an employer, they could decide to do 
more.
    Mr. Levin. Right. Well, I guess I am out of time.
    But I would just point out that, you know, what you 
describe as minimum standards are really quite high standards 
and it is impressive to me as somebody who needs to help, you 
know, make the laws of our country that you all, each of your 
countries maintains very high standards for apprentices to make 
sure that they get a great education and have a great standard 
of living afterwards and that is something we can aspire to 
here.
    Chairwoman Davis. Thank you, Mr. Levin.
    Mr. Trone.
    Mr. Trone. Thank you, Chairwoman Davis and Ranking Member 
Smucker, for holding this very important hearing.
    And thank you to the witnesses for being here.
    As a former employer with over 7,000 team members that 
worked for my company, my favorite area is Human Resources and 
that is unusual for an entrepreneur but being part of the Human 
Resources invested in people and what you folks are doing in 
entrepreneur--apprenticeships in Europe is just phenomenal. We 
were out yesterday at the Plumbers & Gasfitters Local 5 and 
they are doing very similar work that is excellent and it is 
Earn-While-You-Learn, as Ranking Member Foxx spoke about 
earlier, and the folks, of course, leave with zero debt. Very 
impressive. So, we need to clearly learn from the European 
model and all your countries.
    But what has been done at the Federal level to ensure equal 
access so everybody can participate regardless of gender, 
disability, age, or race? Whoever wants to go first.
    Ms. Annen. I will just start.
    So, I think for especially for disabled people or for 
people with migration background, we have got special programs 
in place to make them ready and to provide kind of trainability 
to them so that they have the language skills that they need 
and that they also have the general education background to 
access an apprenticeship. So, we tried to include those people.
    Mr. Trone. Dr. Marti.
    Mr. Marti. Thank you.
    So, over all currently, we have the problem overall that 
there are many more apprenticeship positions open than we have 
people who would fill them. So in a way I think that makes this 
problem a less difficult one, but at the same time I think we 
have the biggest challenge is probably with immigrants from 
countries that do not know apprenticeship models. So, they are 
not really aware of it to the extent people would be aware of 
it whose parents come from a country that knows apprenticeship.
    So, there I think it really play as big role during the 
last 2 years of compulsory education to convince them of the 
value for themselves, for them after graduating from compulsory 
school.
    Mr. Trone. Could you also speak to the various ways the 
Swiss VET system is fully embedded in Switzerland's overall 
education system and maybe share some successes and challenges 
you face in that system?
    Mr. Marti. Yeah, so it is fully embedded in the sense that 
you can move around in it like, for instance, you can do an 
apprenticeship. Then you can add what we call vocational 
baccalaureate that grants you free access without exam to 
University of Applied Science, but you can also do the 
opposite. You can go to academic high school where you 
typically would continue your pathway towards research 
university, but you realize that University of Applied Sciences 
would be much more interesting. In that case you first would 
need to get practical experience because otherwise it would be 
disadvantage compared to people with an apprenticeship 
background at that University of Applied Sciences.
    So it works both ways, and it happens both ways that people 
move around in that system.
    Mr. Trone. All right. The Trump administration established 
a task force to study apprenticeships; and they recommended we 
put apprenticeships opportunities in every high school in 
America, which I think is a damn good idea.
    So, what are the specific steps your countries have taken 
to lead such high school participation? Because nothing has 
happened here. What should we be doing to look at moving this 
forward?
    Mr. Bradley?
    Mr. Bradley. So, nationwide we--all high school students 
have an opportunity to participate in a schools-based 
apprenticeship in the final two years of schooling. So, that is 
students in the Years 11 and 12 are able to access that 
program. We have just completed a review of the sector 
mobility, to get back to your earlier question.
    We are looking to move the Australian VET system to what we 
are calling a more modern applied fast-paced alternative to 
classroom-based learning; and part of that is reforms. It is 
about providing clear secondary school pathways to 
apprenticeships, to vocational training, and also greater 
access for disadvantaged Australians as well.
    Mr. Trone. Quickly, Dr. Annen.
    Ms. Annen. I think in Germany it is based on we have a 
broad agreement between the federal states and the federal 
government to promote vocational education and training and it 
is a complementary system where schools feel responsible for 
the educational part and where they also invest to make sure 
that people are provided with the best possible education in 
both learning venues.
    Mr. Trone. Okay. Thank you very much.
    Chairwoman Davis. Thank you very much.
    Okay. I want to note for the subcommittee that 
Representative Fred Keller of Pennsylvania is permitted to 
participate in today's hearing, and I recognize him for five 
minutess.
    Mr. Keller. Thank you, Chair Davis.
    And thank you to the panel for being here today.
    Just a couple of questions and whoever would like to go 
first on the panel may.
    Wondering about perspective students and how they are 
recruited by apprenticeship programs for--are they--by the 
apprenticeship programs or the employers, do they recruit the 
students?
    Ms. Annen. In Germany, they are responsible for their 
recruitment themselves and, as I said, the chambers at the 
organizations of the business sector, they have information and 
counseling services for the young people in place and also our 
employment agency has but responsible--are also the companies 
are responsible to hire them and to do the contract with them.
    And earlier it was asked about the standards. So basically 
in our law--you don't need a general educational certificate to 
start an apprenticeship, although the business is the limiting 
factor. So, the companies decide whom they want to hire and 
whom they think has the trainability and whether they think 
they can complete a successful apprenticeship with those 
people.
    Mr. Keller. Thank you.
    So that would mean that the people that want to be 
apprentices would have to qualify with the businesses?
    Ms. Annen. They have to apply at the company and then the 
company will have an assessment with them and they decide which 
ones they want to hire and whom they want to offer a training 
contract.
    Mr. Keller. So it is not just basically open to anybody 
that wants to learn that skill or that job.
    Ms. Annen. It is not like--we have got a lot of--like in 
Switzerland we have got a lot of not-filled apprenticeships 
places and occupations where they are maybe not that popular 
and we have got some occupations where there are more people 
wanting to learn those job than we have apprenticeship places.
    Mr. Keller. So you have people that want to learn 
something, but nobody has picked them up in that apprenticeship 
program.
    Ms. Annen. That can happen.
    Mr. Keller. Anybody else on how yours work?
    Mr. Bradley. So, a small adjustment to that as well, I 
suppose. So, there is a model in which you can, the employer 
will be responsible for entering into a contract with an 
apprentice and take them on as an apprentice. Through our group 
training model, group training organizations act as an 
intermediary.
    So, it can be a community group or an industry-led group 
which will take on a cohort of apprentices and then place those 
apprentices with employers on a project-by-project specific 
needs, seasonal work as required.
    Mr. Keller. Okay. Dr. Marti, anything different?
    Mr. Marti. Thank you.
    No, I think it is similar as in Germany that they apply. 
The students, after compulsory education or in the last year of 
compulsory education, they apply with companies; and companies, 
however, they also advertise a lot because they want to have 
the best talents.
    Mr. Keller. Okay. So do you track the individuals as far as 
any kind of diversity or so forth that go through the 
apprenticeship programs, or is it just basically based on who 
is qualified and who they select to go through these?
    Mr. Marti. The Government does not interfere in that 
application process. That works between the students and the 
employers but it is true that some students, they have a--for 
instance, they would like to go to a profession where there are 
a very limited number of apprenticeship slots open. So, what 
they would do often is they would go to look for a bridge year 
maybe--
    Mr. Keller. Okay.
    Mr. Marti--like a tenth school year, for instance, where 
they would work also specifically on some of their weaknesses 
in order to--they would see what could they improve to get to 
an apprenticeship that they would like to do. Sometimes they 
would reevaluate their options and apply for another 
apprenticeship.
    Mr. Keller. Okay. I thank the panel.
    And I yield back my time. Thank you.
    Chairwoman Davis. Thank you.
    Mr. Guthrie.
    Mr. Guthrie. Thank you very much.
    And I am so sorry. I had another hearing that was dealing 
the opioid crisis and fentanyl and other things that are 
happening to our young people that we needed to be there and I 
apologize for not being here for the discussion but this is 
important, positive things that we can look at, how we are 
going to train our young people.
    Chair Davis and I had been real interested in the Swiss 
model. We studied a lot of the Swiss model; and what 
apprenticeships here, a lot of it is kind of focused on more 
blue-collar, technical skills which we absolutely need and have 
absolutely fantastic careers in doing so. The problem that we 
have talked about going back and forth is just the kind of the 
perception here that is what apprenticeships are and that is 
kind of what they are here and the Swiss model is seeing people 
who are bankers, who are--it was apprenticeships were pathways 
to professional careers as well.
    Specifically I know of an instance in a Nestle lab where 
people, where they had teenagers, high school, what we would 
call high school in apprenticeships programs learning how to 
make protein, I guess, dehydrated, transportable so they could 
send that to Africa and they were going to be lab 
professionals, not in the technical skills which, again, before 
I go any further, those are absolutely honorable, great jobs 
and we need more of them in our country.
    But could you talk about just kind of the professional 
apprenticeship? You may have already and I apologize if you had 
but I am real interested in kind of the pathway where it seemed 
like after what we would call our freshman year of high 
school--I know it is not equivalent--but essentially people 
would continue on a pathway of more of an academic career and 
it seemed like two-thirds or maybe 60 percent of the Swiss 
citizens would go in the apprenticeship program and, like I 
said, lead to all kind of careers, not just construction trade 
and those types of things.
    Could you talk about that?
    Mr. Marti. Thank you very much.
    Yeah, I like to do that. So, yeah, it is 230 very different 
fields usually; and they are rather comprehensive, however. 
Like we don't have, for instance, an apprenticeship, a youth 
apprenticeship in accounting. This would be part of a 
commercial employee apprenticeship, for instance, in banking or 
insurance where you learn many other skills than just 
accounting, for instance, and, yeah, you see that in other 
fields as well and, yeah, maybe I can--
    Mr. Guthrie. Well, just want to comment on how 
apprenticeships are equivalent or prestigious viewed as the 
Swiss society. I think one question was: How did you get over 
the hump can you be a professional and not have to have a four-
year degree from a college university? And somebody made the 
comment that was kind of what Switzerland always does, kind of 
the guild system. It goes back several hundreds years. So, we 
don't have that same kind of--
    Mr. Marti. I think it is prestigious also when you see that 
we have quite a consistent percentage of about 68, 67 percent 
participating in it. So, yeah, it is more the demographics 
currently that created the situation where we have many more 
apprenticeship positions open.
    Mr. Guthrie. I promised Mr. Smucker I would give him some 
time but so about a third of the U.S. has four-year degrees and 
you are saying 65 percent go to apprenticeships?
    Mr. Marti. Yeah, two-thirds go to apprenticeships.
    Mr. Guthrie. Two-thirds. So what we are trying to do is we 
have a system that--that we are not focusing on two-thirds 
going to apprenticeships but still only a third are getting 
college degrees.
    So, I will yield to Mr. Smucker. So, you-all seem to have a 
good handle on it is my point.
    Mr. Smucker. Thank you.
    This has been a fascinating discussion. It has been hard to 
say quiet here. I have had a lot of questions. So, I am going 
take this opportunity to thank you Mr. Guthrie.
    I want to follow up first the line of questioning that Mr. 
Levin asked earlier which I thought were some very good 
questions in regards to how we think here about a baccalaureate 
degree versus going directly to the workforce through some 
earn-to-learn program.
    That is changing. We have for decades told our students 
that, you know, the only pathway to the workforce is through a 
four-year degree. It was a disservice. It was a mistake. We are 
gradually changing that and certainly here we understand the 
value of apprenticeship programs and other earn-while-you-learn 
models and I think it is changing in the country as well.
    But I'd like to drill down a little. In the students that 
do not go to a four-year degree, students that go directly to 
the workforce, they are still a large percentage here in the 
United States that are doing that but not doing it through an 
apprenticeship program. So, there are a lot of different 
pathways. It may be they walk into an employer and the employer 
has their own internal training. It may be through a career in 
technical school where they go for two years and then enter 
into the workforce.
    I am curious in your countries you may have to answer this 
later; I am running out of time--but in your countries is there 
still a percentage of the workforce that does not go to a four-
year degree but enters the job--the workforce through some 
other pathway other than an apprenticeship program? Are we 
going to have time for that--
    Chairwoman Davis. Yeah, I think, Mr. Smucker, if we can go 
to Ms. Wild and then we will come back--
    Mr. Smucker.--thank you.
    Chairwoman Davis.--to you and continue with that--
    Mr. Smucker. Keep that in mind for later.
    Chairwoman Davis.--that would be great or I am going to get 
in trouble here.
    So, I want to turn to Ms. Wild and we had recognized her 
earlier that she is not on the subcommittee but we had given 
her permission to join us for five minutes. Thank you.
    Ms. Wild. Thank you, Madame Chair.
    And thank you to the panel for being here. This is a 
subject of great interest to me which is why I am here, even 
though I am not on this subcommittee.
    Dr. Annen, I am happy to say that in September I will be 
visiting Germany which is the country of my birth. I haven't 
been there for a very long time but one of the things that I am 
hoping to do while I am on that trip is to visit some of the 
manufacturers who have locations in my district in 
Pennsylvania, of which there are several, and to learn more 
about the apprentice programs that are utilized there, because 
I think they are so incredibly important. So, I am going to 
direct this question to you.
    But if either of the other two witnesses would like to 
chime in, I am happy to hear from any one of you.
    One of the greatest concerns we have in this country, I 
think, and probably in most countries is that we have a lot of 
industries that are dying and being taken or being replaced by 
newer technologies and newer developments in those kinds of 
industries.
    And I guess my question is this. How do you incorporate the 
need to employ--to educate people in those new, upcoming 
industries, number one, and bring them into the apprenticeship 
program if they are perhaps part of an industry that is on its 
way out or a part of a dying industry? That is number one, that 
is part of my question.
    And the other is, you know, I feel really strongly we can't 
just focus on younger people as the future of work and what do 
we--I am trying to understand more about what we do to help 
people who are middle aged but still very much a part of the 
workforce and who have to voluntarily or involuntarily 
transition to a new industry.
    So, I will stop and see what kind of response you might 
have for me on that.
    Ms. Annen. So, yeah, I think that the innovation, the 
technological change is something that will highly affect every 
labor market across the globe and we are also facing this in 
Germany and we are seeing that over time there are some 
occupations where we need to abolish them because they are no 
longer needed and we have to also train those people into other 
fields and make sure that they are provided the skills that 
they actually need which companies already do, which is not 
necessarily highly regulated.
    And we also have big opportunities regarding continuing 
education which is a very low bar in Germany. So, there is no 
training necessary needed. So, if you have done workplace 
learning, if you have acquired competences in an informal way, 
that is also something that provides you with the skills that 
you would need and for passing those examinations related to 
those certificates, you would not necessarily need to go into a 
training course.
    So, we try to keep it as flexible as possible also for 
older people who have learned doing their work, during their 
work in the company so that they can also get a certificate 
that actually contains those skills and we are trying to work 
as closely together as we can with the companies and we do a 
lot of research and this so we try to figure out as early as 
possible. We do projections in which fields we might have the 
biggest needs and also try to develop the training regulations 
as early as possible to keep track of this.
    Ms. Wild. So, if I understand what you are saying then, 
people would be trained while still in whatever their industry 
might be, that it perhaps is not going to be an industry of the 
future, to evolve into a worker who can service a newer, 
upcoming industry without downtime?
    Ms. Annen. Yeah, I think as an industry for me IT is a good 
example. You do not necessarily have people, older age, people 
who work in IT nowadays who have the formal qualifications in 
this field because it just didn't exist before.
    And now they are formalizing it over time and, the younger 
people, they have this formal training in the field. And we try 
to keep it up to date as good as possible. But there are 
dynamics in the companies and in the sectors that just evolve 
naturally and that we try to formalize afterwards sometimes. 
So, that is how we approach this.
    Ms. Wild. Thank you. That is very helpful.
    You probably know that we have a lot of discussion here in 
the space of climate change and renewable energies and that 
kind of thing, and then we have got people working in the 
fossil fuel industry who need to transition into new forms of 
employment without suffering a real interruption to their 
economic well-being. So, your information is very helpful.
    Thank you very much.
    Chairwoman Davis. Thank you.
    And now I turn to Mr. Smucker for your five minutes.
    Mr. Smucker. So, again, my question is the students who are 
not going to a four-year degree, who are in the workforce 
through some sort of career and technical training or through 
on-the-job training, how important in each of your countries is 
apprenticeship as a part of that and how many--how many 
students are involved in apprenticeship programs as opposed to 
other on-the-job learning programs?
    Mr. Bradley. I have some figures here. So, we roughly have 
about--we roughly have about 260,000 apprentices in the system 
at the moment compared to I think it is about just short of a 
million or just a million in higher ed. So, granted, higher ed, 
it will have a longer duration; but that is relatively the 
proportions.
    There are, of course, those that choose not to do either. 
They go straight into the workforce or have a gap year, have an 
extension as well.
    Mr. Smucker. So you are saying straight into the workforce 
rather than through an apprenticeship program?
    Mr. Bradley. Yes.
    Mr. Smucker. How many would have you of them?
    Mr. Bradley. I don't have those figures in front of me. I 
am sorry.
    Ms. Annen. I also can't tell you the exact number for 
Germany but I think it is a very big political discussion in 
Germany and we also try to put measures and approaches in place 
that recognize this informal learning that these people have 
acquired so that we have the option.
    For example, within the apprenticeship we have the option 
of a so-called external examination where you can apply once 
you have done--you have learned in the workplace one and a half 
time as long as the regular apprenticeship is and you can prove 
that you have this practical experience and then you can also 
challenge exam can and you get the certificate afterwards so 
that it is not necessarily that you directly enter through the 
formal route.
    Mr. Smucker. How about in Switzerland?
    Mr. Marti. In Switzerland, we actually measure it at age 25 
and there we see that two-thirds have an apprenticeship degree 
and 25 percent have a general education degree like academic 
high school, baccalaureate, and so overall 91 percent, 91 
percent have some--have an upper secondary degree. So, 9 
percent don't have that of the age cohort.
    Mr. Smucker. Yeah. The reason I ask the question is all of 
your systems obviously place more value on apprenticeship 
programs as opposed to other--as opposed to what we do here. 
More people are involved, more industry is involved, and more 
students involved. And I guess if I am the student one of your 
systems, what is the value of an apprenticeship program, of 
being part of a registered apprenticeship program, as opposed 
to on-the-job learning to some other form? Why would I choose 
an apprenticeship program?
    Ms. Annen. I think, once you have the certificate, you are 
very mobile on the labor market and you actually have something 
that proves what skills you have acquired and also regarding 
collective wage agreements, once you have the certificate, you 
are able to receive a certain amount of money as a salary which 
you are not necessarily if you are considered as an untrained 
or whatever worker. So, that is an advantage.
    Mr. Smucker. Sure.
    Does anyone else want to address that?
    Mr. Marti. Yeah, thank you.
    Yeah, I think the degree to which you receive training and 
education during apprenticeship is so much more comprehensive 
than if you would just learn on the job because it is dual. You 
learn all the theoretical background of all the things that you 
do in an applied way, and those are the applied. Like the 
practical part is very structured. We also have intercompany 
courses that are a mix.
    So, in a way it is not just dual. In the way it is three 
places where you learn, it is the vocational school, it is the 
employer where you participate in actual work streams, and then 
it is intercompany courses where you learn practical methods in 
a more systematic way. And when you would learn on the job, you 
would miss out on all of that.
    Mr. Smucker. I think that is great.
    One of the barriers here--and I am curious how each of your 
countries handle it. If I am a new company who has not 
participated in apprenticeship programs before, it can be a 
rigorous process to get approved for an apprenticeship program 
within an individual company. It is a regular existing 
apprenticeship program but not for that specific company.
    How do each of your systems handle that?
    Ms. Annen. So, in Germany the chambers take care of this 
and they make sure that the whole facilities in the company 
allow to train the recommended standards that are written down 
in the training standards; and also they have a qualification 
for the trainers, the in-company trainers, to make sure that 
they are personally and professionally able to train those 
people.
    And so we have some quality assurance measures in place to 
make that sure and also chambers providing support companies 
and getting ready to do apprenticeships.
    Chairwoman Davis. Thank you very much, Mr. Smucker.
    Now I am going to go for my five minutes and we are going 
to try and summarize after that and maybe ask an additional 
question if we have one.
    I wanted to really turn to this whole issue of stakeholders 
and, because as I understand it, you have a oversight from 
stakeholders, from businesses, as well as the state. Can you 
help us understand a little bit more about how that is 
integrated and where, you know, whether they--I guess just how 
important that is. Because, as you have heard, we sometimes 
think if that you have standards, then you have regulations 
which could overwhelm businesses.
    And I know that, you know, we are looking now at the 
industry-recognized apprenticeship programs. We don't have the 
answers to that. I wouldn't ask you to even define that at this 
point because there is still a lot of details that haven't been 
really brought forward.
    But who controls all of this? You know, how do you make 
sure that the people who are providing some oversight in the 
different occupations, where do you find them; and how do they 
mesh with the state system?
    Ms. Annen. Well, I think--
    Chairwoman Davis. Without explaining the bureaucracy and I 
guess the question is: Is it a great big bureaucracy? Because 
what we're grappling with is how do you do this in a simple 
enough way that people are invested in it, businesses are 
invested, they don't feel overwhelmed by it, whether it is 
going to make them crazy. How does all of that come together?
    Ms. Annen. I think in a short-term perspective maybe it 
would be easier for each company if they just see that there is 
a need and they just adjusted themselves in the short 
perspective.
    But over long-term they actually, they get the advantage 
that they have a broad skilled workforce in that branch once we 
have these regulated established standards and so it is in 
their own interest. Once they want to recruit other people, 
they know exactly what they can expect; and they have a broader 
opportunity to get young people who are skilled for their own 
companies.
    And also it is a lot about this vocational identity that we 
create with this apprenticeship. It is like the rules concept 
what we have in Germany, this occupation, I think, that is a 
very important component in our system and that is something 
like we can almost call it a brand. It is like, if we want to 
abolish an occupation, it is most of the time that trade unions 
and employer organizations, we can't give up on this brand.
    Chairwoman Davis. Maybe just to interrupt you at this 
point.
    So, what happens if one of the occupations, if somehow the 
program is not doing well, do these stakeholders close it down? 
What would they do if they felt that the apprentices were not 
being protected, that they were getting good value for their 
time? Can they do that?
    Mr. Bradley. I wouldn't say it is a question of oversight. 
I think the way industry plays a role is it is about, it is 
about providing inputs, advice more than oversight per se. We 
do monitor and evaluate through our research organization in 
TVR in terms of surveys of employers and apprentices, what was 
their experience like, are they meeting the needs of the 
industry and so on.
    So, we are closely monitoring that. We have what is called 
an Industry Skills Council which is set up for different 
sectors which then provide a formal mechanism to provide the 
input and advice to government to say this his working, this is 
not working, we need to change things.
    Are they able to shut it down per se? No. I think it is 
going to be more a question of apprentices voting with the 
fetal firms, voting with their feet, and walking away from the 
system. It is a competitive process.
    Chairwoman Davis. Can I ask you quickly just about--we know 
trades has obviously been involved here for a number of years. 
What role do unions play? How does that work?
    Ms. Annen. Within the process of establishing a training 
regulation, so I think in Germany it is very important that we 
have this agreement between the social partners so that both 
think that this actually a broad qualification that is--there 
is a long-term need and that is a big interest for the trade 
unions, that it is not these narrow qualifications which are 
just short-term, because they want to make sure that people are 
qualified for the future and that they have broad opportunities 
afterwards once they go through an apprenticeship like this.
    Chairwoman Davis. Yeah. Perhaps, Dr. Marti, you want to 
comment on that. If you could include in your question quickly, 
we obviously put a greater premium on colleges and 
universities. I mean, that is kind of what students around 
parents want.
    So, what about the prestige factor for parents? I am 
assuming that because you have the standards, then people know 
that they can count on that, that is going, the end result, if 
you will, is going to be positive in terms of job and the 
ability to raise a family, et cetera.
    Am I correct in that or is there something else that we are 
missing in terms of prestige factor for families?
    Mr. Marti. Yeah, it is a good question.
    The roles of parents is also important, of course; and we 
observe that plays, of course, the family background plays a 
big role in what pathway young people choose.
    So, we do see that, for instance, when both parents or one 
parent has an academic background, the probability that their 
children is taking the academic route, like, towards university 
is higher. That is true.
    Chairwoman Davis. Okay.
    Mr. Marti. And vice versa also.
    Chairwoman Davis. Yeah, thank you.
    Mr. Smucker, do you want to summarize or ask more 
questions? Go ahead.
    Mr. Smucker. I do have two questions.
    So, one, I mentioned earlier we have graded our schools by 
how many of their students went to university rather than 
through directly to a career through an apprenticeship program 
or otherwise.
    How do your schools think about this? And I will just say 
it in the context in the district that I represent there are 
some really great new partnerships developing between the 
schools, the secondary schools, and businesses where students 
are moving directly to the workforce maybe through an 
apprenticeship program and schools are beginning to really 
value that, as opposed to all students going directly to a 
four-year degree.
    So, I am just curious how your schools think about such 
things?
    Ms. Annen. So, I think that it is both equal opportunity. 
So, I didn't mention our qualification for it but it has also, 
like in Australia, it has eight levels and you can choose the 
vocational route and you can choose the general, higher 
educational route and you can just end up in the same positions 
in the labor market and you can also reach degrees which are on 
an equal level. So, it is, like, it is not equal.
    The contents are not equal but it is on an equal level and 
we look at it like it is equal opportunities and it also has 
the same career perspectives.
    And there is permeability between the systems; and people 
take those routes, vice versa. So there is permeability in the 
system. It is not like I would say one thing is better than the 
other. They are different, and they also have different 
advantages and disadvantages so.
    Mr. Smucker. Is that similar in Australia, Mr. Bradley?
    Mr. Bradley. I would say it is a work in progress. It is 
having the similar kind of issues around stigma that you are 
experiencing here. There is a strong dominance of university/
higher education over vocational pathways, so much so every 
year the high school certificate results are celebrated and 
these are the results of these schools, of these high schools. 
This is where their students are going. That is public. A big 
fanfare is made of that.
    Mr. Smucker. Sure. Dr. Marti, rather than answer that, 
since I am close to running out of time, the other barrier I 
have seen in those partnerships is that we have labor laws that 
prevent students under 18, 16- to 17-year-olds sometimes from 
participating in workforces where they are around machinery. It 
is something that I have heard back from employers in my area 
who would like to have students participating in what we call 
pre-apprenticeship programs at our high schools but are 
prevented from doing so because of some of those what I think 
are outdated laws.
    Do you run into that in Switzerland at all? You mentioned--
one of the takeaways I think that I heard today is that all of 
your countries get students involved in apprenticeship programs 
at an earlier age than we do here. So I am curious whether that 
is an issue?
    Mr. Marti. Yeah, I remember that there was an issue when we 
had more people entering apprenticeship already at age 15. I 
think we needed to change something there and adapt a little 
bit, but at age 16 I am not aware of problems.
    Mr. Smucker. Okay.
    Mr. Marti. Also, yeah, I think that is--that works.
    Mr. Smucker. Yeah, I think we need to--one of the things we 
need to do here is look at our rules and laws around that and 
perhaps make some changes to make that access to the workforce 
easier at a younger age but that is a discussion for another 
day.
    I only have a minute or so. So I do want to just finish by 
thanking each of you for taking the time to be here today to 
share your perspectives, share your best practices. I can tell 
you for myself this was very useful to hear your experiences 
and your perspectives. So, this was invaluable.
    I would like to thank the Chairwoman again for scheduling 
this hearing. We all want to see the skills gap shrink and see 
the needs of our local communities and employers met; and in 
order to do that, we must encourage flexibility in the system. 
We must encourage employer-led innovation.
    So, I was particularly encouraged to hear today about the 
potential that can be realized when not just your governments 
but all the stakeholders--students, employers, educators--are 
brought into this promise really of apprenticeships. Students 
and families should never feel stigmatized for taking a path 
that is best for them. They should be free to choose among 
different types of education on the pathway to a permanent job.
    Sharing and learning from the best practices of those 
around us, like yourselves today, is even more important in 
today's rapidly evolving economy.
    So, again, I particularly appreciate the opportunity to 
hold this discussion with you today.
    Thank you.
    Chairwoman Davis. Thank you very much, Mr. Smucker.
    And to all of you, again, I wonder if you could just take 
just your breadth of experience for a moment, maybe this is a 
cautionary tale or something different, but I am just wondering 
if you, having heard, you know, this discussion today and the 
number of the questions--and obviously we have a very different 
system here the on some levels and we are trying to figure out 
do we have to change at all or can we incorporate more 
apprenticeships, scale these apprenticeships across many, many 
different careers in our system or do we need to make some 
changes.
    But I wonder, you know, is there one or two pieces of 
advice that you have, in closing, whether it is advice about 
something that has worked especially well in your system in 
terms of whether it is innovation or the schools design or 
something for us to avoid doing? What is that cautionary tale 
that you might like to offer to us as we close?
    Dr. Annen would you want to--
    Ms. Annen. My recommendation would just be to look at the 
government and at the business community as partners that work 
together for one goal which is providing, yeah, good 
apprenticeships and good qualified training to young people; 
and that is in both interests, in the government's interest and 
in the business and the company's interest.
    And I think in general this principle of consensus is 
really one thing that makes it very successful because we have 
people together onboard within the whole process, and that is 
what I would recommend.
    Chairwoman Davis. Uh-huh. Great.
    Mr. Bradley.
    Mr. Bradley. I guess we are all talking about skill 
shortages here and my response to that is that it has to be 
easy. You know, we are out there, begging for employers to come 
to the table; and we need to say to them here is an apprentice 
that will be of value to your firm and to the work that you are 
doing.
    So, it needs to be as streamlined as possible, as utilities 
as possible to bring them into the system and to show the value 
of what is being done and flexible. So I would say do have a 
look at our group training model in a bit more depth and how 
that provides access to small firms, to medium firms, as well 
as large firms on an as-needs basis.
    Thank you.
    Chairwoman Davis. Thank you.
    Dr. Marti.
    Mr. Marti. Thank you. Yeah, from the Swiss experience I 
would like to, yeah, focus on those three main features I 
mentioned earlier. I think the labor market orientation is very 
important to keep it relevant, to have relevant 
apprenticeships. And the partnership of the different 
stakeholders is important for a well-functioning system, that 
it works reliable and seamlessly.
    And finally also the permeability I think is very important 
for the perspective of everyone and for the dynamics because we 
don't know what kind of labor market we will have in 10 years 
or 20 years.
    Chairwoman Davis. Yes. Thank you.
    Thank you very much because we are also thinking about the 
future as well as the present. We need help and support in 
both.
    And, again, I want to thank you very much. I think you all 
have identified the major themes that we are questioning, you 
know, on how we can work in perhaps a new way to make this work 
for many more students who would not have the ability to 
probably, you know, go to a friend's business perhaps and just 
ask for a job. I mean, this is something on a scale that really 
has such benefit, I think, in the long run; and we want to do 
that.
    So, I know that we want to ensure that apprenticeship 
opportunities in the U.S. are not relegated to alternative 
pathways either and be a value, a competitive and a rigorous 
pathway for all students to reach their full potential.
    So, we thank you very much. Again, thank you for your 
travel; and we look forward to having further discussions.
    And we are adjourned.
    [Additional submissions by Mr. Bradley follow:]
 
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    [Whereupon, at 12:42 p.m., the subcommittee was adjourned.]

                                 [all]
</pre></body></html>
